<html>
<title> - POST-KATRINA TEMPORARY HOUSING: DILEMMAS AND SOLUTIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
         POST-KATRINA TEMPORARY HOUSING: DILEMMAS AND SOLUTIONS
=======================================================================

                                (110-20)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 20, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                     U.S. GOVERNMENT PRINTING OFFICE

34-791 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY, Pennsylvania  Virginia
TIMOTHY J. WALZ, Minnesota           CHARLES W. DENT, Pennsylvania
STEVE COHEN, Tennessee               JOHN R. `RANDY' KUHL, Jr., New 
JAMES L. OBERSTAR, Minnesota         York
  (Ex Officio)                       JOHN L. MICA, Florida
                                       (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Dupuy, Ben, Partner, The Cypress Cottage Partners................    11
Molino, Michael A., President, Recreation Vehicle Dealers 
  Association....................................................    11
Paulison, Hon. R. David, Director, Federal Emergency Management 
  Agency.........................................................    11
Ross, Hon. Mike, a Representative in Congress from the State of 
  Arkansas.......................................................     1
Turner, Margery Austin, Director, Metropolitan Housing And 
  Communities Policy Center, Urban Institute.....................    11
Williams, Pamela, Resident, Yorkshire Mobile Home Park, Hammond, 
  Louisiana......................................................    11

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    39
Cohen, Hon. Steve, of Tennessee..................................    40

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Dupuy, Ben.......................................................    41
Molino, Michael A................................................    64
Paulison, R. David...............................................    69
Ross, Hon. Mike..................................................    77
Turner, Margery Austin...........................................    79
Williams, Pamela.................................................    88

                       SUBMISSIONS FOR THE RECORD

Dupuy, Ben, Partner, The Cypress Cottage Partners, Cypress 
  Cottage Partners: Alternative Housing Pilot Program............    46
[GRAPHIC] [TIFF OMITTED] 34791.001

[GRAPHIC] [TIFF OMITTED] 34791.002

[GRAPHIC] [TIFF OMITTED] 34791.003

[GRAPHIC] [TIFF OMITTED] 34791.004



         POST-KATRINA TEMPORARY HOUSING: DILEMMAS AND SOLUTIONS

                              ----------                              


                        Tuesday, March 20, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                       Emergency Management
                                                    Washington, DC.
    The committee met, pursuant to call, at 3:00 p.m., in Room 
2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [chair of the committee] presiding.
    Ms. Norton. The Subcommittee will come to order.
    Even before I do my opening statement, I understand that 
Congressman Ross, who represents one of the jurisdictions whose 
plight drew our attention to these issues, has to leave 
shortly. So I will defer to him for a few minutes of opening 
statement.

   TESTIMONY OF THE HONORABLE MIKE ROSS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Ross. Thank you, Chairwoman Norton and members of the 
Committee, for holding today's hearing on post-Katrina 
temporary housing problems. I am grateful for the opportunity 
and the invitation to discuss these issues before the 
Subcommittee today, and I am eager to work together to find 
solutions to the temporary housing problem that currently 
exists.
    Chairwoman Norton, I am good for a while, and I will be 
glad to stay and answer questions and be a part of this for as 
long as I can. I appreciate again the invitation to be asked to 
be here today.
    Let me begin by explaining my recent experience with the 
temporary housing crisis in my district, due to severe weather 
and tornadoes that recently struck Arkansas. On February 24th, 
2007, severe storms and tornadoes ripped through the town of 
Dumas and Desha County, Arkansas. This small delta community 
has a population of about 5,000 people. Median household income 
is $26,628. Fifty-three percent of the residents of this county 
live at or below 200 percent of poverty. It is what we would 
consider a very poor county.
    When the tornado hit, it completely destroyed 37 homes and 
25 businesses, injured over 30 people and left this community 
without power for five days and 800 people without jobs 
indefinitely. In total, it was estimated that up to 150 homes 
were deemed uninhabitable. I was back there again Friday, and I 
can assure you, there are still people looking for a place to 
live and a lot of businesses that just do not--they simply do 
not know when they will be able to reopen their doors, leaving 
up to 800 people unemployed.
    In total, it was estimated that up to 150 homes were deemed 
uninhabitable. This kind of massive damage to a poor delta 
community is incredible and extremely difficult to recover 
from. Yet, FEMA spokesman John Philbin stated that, ``The 
damages or need for Federal assistance is not readily 
apparent.''
    On February 27th, three days after the storms hit, the 
Governor of Arkansas requested an emergency declaration from 
FEMA. Later that day, I led conference call from FEMA Director 
Paulison and expressed my support for the Governor's request, 
as well as requested that FEMA transfer some of the 8,420 new 
fully-furnished and never used manufactured homes located three 
hours away at a FEMA staging facility in Hope, Arkansas, also 
in my district, to these families in need. These homes were 
originally purchased for Katrina victims, but never made it to 
them, either. Instead, they have been sitting idly by at a FEMA 
staging facility in Hope, Arkansas, since 2005.
    Finally, 12 days after the tornadoes destroyed parts of my 
district and 9 days after the Governor's request, we finally 
received a response from FEMA. FEMA said no. They denied the 
State's request for an emergency declaration and as a result, 
the State, county and city are now responsible for 100 percent 
of the storm cleanup expenses, and we are not allowed to 
receive even one of the new, never-used mobile homes FEMA had 
stored in Hope.
    But after 13 days of working, waiting and prodding to the 
point of our story becoming national news, and I don't believe 
it was any accident that the conference call with FEMA came two 
hours after the NBC Evening News, where they finally offered to 
give the State of Arkansas 30 used and/or refurbished mobile 
homes and travel trailers from the staging facility in Hope, 
but only if the State would pay to transport them and set them 
up for victims who remained homeless for two weeks.
    The people of Dumas were grateful to receive them. In fact, 
I would like to share part of an e-mail I recently received: 
``Dear Congressman Ross, I am a tornado survivor in Dumas. 
While my husband and I have the means to take care of our own 
housing, I am fully aware that there are some who cannot. I am 
a school teacher to many of the Hispanic families who received 
trailers this weekend. You have no idea how much this has made 
an impact on these students. They came into school this morning 
with bright smiles on their faces saying, 'I got a new house.' 
''
    This e-mail shows why we do what we do in Washington to 
make a difference in the lives of those we represent. It 
confirms how important our role is in this debate. But I am 
frustrated with the massive bureaucracy involved in simply 
helping people in an emergency situation. It is astounding to 
me that for 13 days, hard-working families in my district had 
nowhere to live, and yet, 160 miles away, 8,420 new, fully-
furnished, never-used mobile homes sat untouched.
    Last year, I introduced two bills to give FEMA the 
authority to provide relief to the victims of Hurricanes 
Katrina and Rita and so many others in need of temporary 
housing caused by natural disasters. In March of last year, I 
introduced H.R. 4784, which would allow FEMA to distribute some 
of these manufactured homes to victims that are located in 
flood plains. And in September, I introduced H.R. 6128, which 
would provide for the distribution of the excess manufactured 
housing units located at the Hope Airport to people who are in 
need of affordable housing.
    However, the Republican leadership would not give us one 
hearing or a vote on these bills. Now, I want to use this 
hearing as a opportunity to find a way to help the people who 
are still suffering and improve this process for the next town 
that is forced to deal with a natural disaster that might be 
recognized by FEMA or declared by the President a Federal 
disaster.
    Ultimately, with the help of Chairwoman Norton, Chairman 
Oberstar and Chairman Thompson of the Homeland Security 
Committee, I hope to enact legislation to empower FEMA or some 
other Federal agency to distribute these surplus homes in a 
timely manner to the people who so desperately need them in the 
direct aftermath of a natural disaster, whether declared a 
Federal disaster or not. As my constituents drive down U.S. 
Highway 278 from Hope to Nashville, they still see 8,420 new 
mobile homes, sitting there untouched and never used, when 
storm victims remain homeless. To them, these homes are a 
symbol of why our citizens have lost faith in FEMA and feel 
that our Government is failing them.
    I want to allow, once and for all, these 8,420 mobile homes 
to be used for communities in need, like Dumas, when a natural 
disaster hits them. I believe that we owe it to the people of 
Desha County, the victims of Hurricane Katrina and so many 
other communities who are devastated by natural disasters, to 
change the system. I am optimistic that this hearing is a step 
in the right direction. I will be glad to stay and answer 
questions that anyone on the panel might have.
    Ms. Norton. Thank you very much, Mr. Ross.
    I must say, Representative Ross, that your own work in 
bringing these issues to light is exemplary. What you have 
raised for Arkansas has brought to the attention of this 
Subcommittee matters that frankly, large parts of the Country, 
parts that may not qualify under existing law to be declared 
disaster areas. The tsunami was not recognized under law, and 
yet we found a way to be helpful. Consistent with the law, we 
want to find ways to be helpful.
    I really don't want to detain you. I want to get to the 
folks who have been most involved and get to some solutions. 
Homeland Security, to its credit, has already heard a hearing. 
Actually, this is the committee of jurisdiction for these 
disasters. When it comes to solutions, it is the job of the 
Subcommittee to do something about it or to help FEMA do 
something about it.
    So I am going to excuse you, unless another member has any 
questions for Mr. Ross.
    Mr. Shuster. No questions. I appreciate the gentleman's 
being here today.
    Ms. Norton. Mr. Cohen has come in and I will be pleased to 
recognize him if he has any questions.
    Mr. Cohen. Thank you, Madam Chairwoman.
    Just one question. I read something about a law that 
prohibits FEMA from selling these trailers. Did you put in a 
bill to change that law, or should it be put in, in your 
opinion?
    Mr. Ross. Basically, it is the Stafford Act that tells FEMA 
that they basically can't help anyone unless they are declared 
a Federal disaster. In Alabama, Georgia, they had loss of lives 
there, and my heart goes out to them. Testimony last week, 
though, from the Director of the Department of Emergency 
Management in Alabama indicated that no jobs have been lost in 
Alabama, yet we have had 800 jobs lost. I know the hearing 
today is about these mobile homes. But I do believe that we 
also need to rethink how we go about figuring out who qualifies 
as a Federal disaster area and who does not. Obviously, FEMA 
can't give them to people that are not in an area that is not 
declared a Federal disaster.
    There was an amendment through the Senate last year which 
allows them, through the GSA, to make homes available to city, 
county and local governments, I believe for the public good. 
FEMA can better answer that.
    Here is what I know, sir. I am convinced that David 
Paulison is a good man. I have been emotional about this in the 
past and I hope he hasn't taken it personally. I think to a 
large extent, his hands are tied under current law. I think we 
need to help them figure out--FEMA is in the business to help 
people. The people that work at this so-called FEMA staging 
area in Hope, Arkansas, they are good people. They wanted to go 
to work for FEMA not to baby-sit 8,420 mobile homes. They went 
to work for FEMA because they want to help people.
    I think it is our job to try and figure out how we can pass 
legislation. This should not be complicated. I have 8,420 
mobile homes sitting here. One hundred sixty miles away, also 
in my district, I have 150 people with no place to live. We had 
30 people living in a metal building two weeks ago. This 
shouldn't be that complicated to fix. So I am talking to 
anybody in Congress who will listen to me, until we can come up 
with what I hope is a bipartisan, common sense, legislative fix 
to empower him, not to go out and buy more mobile homes, but to 
get these out of the cow pasture and get them to people who 
need them.
    It should not be complicated. Here is the way I think it 
should be. Whether you are declared a Federal disaster or not, 
if you have a home or are renting, wherever you are living, if 
it gets blown away or heavily enough damaged that you can't 
live in it, as long as we have 8,420 of them sitting in the cow 
pasture, why don't we let people use them?
    To me, this is not complicated. Unfortunately, it is caught 
up in this bureaucracy, and to the folks in South Arkansas that 
drive by this cow pasture and look at them, it just doesn't 
make good sense. All told, the Inspector General estimates that 
FEMA will spend $47 million this year, not just in Hope, we 
have other FEMA staging areas, $47 million of our tax money is 
going to baby-sit these mobile homes.
    If I could, on that, not to confuse the two, a lot of 
people get confused over the mobile homes and the camper 
trailers. The camper trailers worked. I think 80,000, maybe 
more, were put out in Hurricane Katrina. People could back them 
up in their driveway, they were easy to hook onto, they were 
allowed to be put in flood plains. The camper trailers worked, 
and now they are coming back to Hope and they are storing them. 
I have some 15,000, 16,000 of those. I applaud FEMA for that. 
That is being good stewards of your tax money. They are 
bringing them back, they are refurbishing them, they are 
getting them ready to go back out in the next disaster. That 
makes sense.
    My problem is these 8,420 brand new, fully-furnished, 
never-used mobile homes that never quite made it to anybody, 
and they are just caught up in this bureaucratic maze, if you 
will.
    Mr. Cohen. I don't know if that answers my question, but I 
enjoyed hearing your remarks.
    [Laughter.]
    Ms. Norton. Thank you very much.
    Are there any other questions from members of the 
Committee?
    Thank you very much, Congressman Ross.
    Mr. Ross. Thank you.
    Ms. Norton. I am going to make an opening statement, then 
ask Mr. Shuster if he has an opening statement. I want to 
welcome Mr. Shuster, especially since he and I have changed 
positions. This was my chair, and I very much respect the 
relationship we had. Mr. Graves is away today with the 
President of the United States, so I have dutifully excused him 
and we will proceed.
    I do want to just say that I recognize that we have had two 
Subcommittee hearings and that this is only our first on FEMA 
and on the Stafford Act. I want to indicate that that is no 
indication of the importance of the two agencies under our 
jurisdiction. One of course is GSA, and the other is FEMA. If I 
had to rank them, and you know I never do, when you have 
children, and neither of these qualify as those, but you never 
say which is your favorite. I do not have any favorites. But I 
do say this, if you had to rank the two agencies, the GSA, 
important for the Country, for its construction of Federal 
buildings, its repair of them, the safety of them and 
especially here in the district, with FEMA, there would be no 
comparison in importance.
    So I want to be clear how important this jurisdiction is to 
every member of this Committee. There is no member of this 
Committee that can afford to believe, well, FEMA must be for 
them, the Louisianas of this world or the Arkansas. To give you 
some idea of how important FEMA is, I bet you think that the 
last place that would be interested in FEMA, because of a 
natural disaster, would be the District of Columbia. I am here 
to tell you differently. The District of Columbia and Northwest 
Washington, no less, one of our residential areas, had a flood. 
I was put in exactly what other more risk-prone members are 
often put to, of trying to make sure we got the needed help for 
them.
    I emphasize, then, that the notion of emergency is in 
FEMA's name. That can mean and almost surely will mean every 
jurisdiction in the United States. Jurisdictions like Mr. Ross' 
are far more vulnerable than in the big cities. Somehow they 
will get it together. But rural areas with the kind of 
unemployment he described cannot afford to be left without some 
kind of assistance, somehow, some way.
    The other reason that we should have had a hearing before 
now, if I had my druthers on FEMA, is the ongoing problems that 
keep coming up, and trying to decide whether they are FEMA 
problems or Stafford Act problems. I want to say to the members 
of the Committee, I regret that the Committee has not yet been 
briefed about our FEMA jurisdiction. We meant to do so at the 
time that we had our briefings with the Committee on 
jurisdiction, but the person with expertise couldn't be there. 
So I have instructed staff that before we go on vacation, we 
have to offer a group briefing to us all on what our FEMA 
jurisdiction is likely to look like this year.
    Again, I stress, if anything, the most important part of 
our jurisdiction, you are going to see as a number of hearings 
come forward. One is already planned. It was a very good 
hearing of the kind planned and I just want to say I asked the 
hearing be moved back in light of the problems we learned of 
involving Arkansas and Louisiana. That is how this Subcommittee 
is going to operate. It is going to respond to the public need. 
If it has to put off something that we had planned, we will do 
it. It is about emergencies and the kinds of problems that were 
described in Arkansas and Louisiana, where people were evicted, 
purportedly, with 48 hours notice. Hey, you think that is an 
emergency for FEMA, that is an emergency for the Subcommittee.
    I am pleased to welcome today's panel. Each of you can be 
instrumental in helping the Subcommittee think through emerging 
new and unprecedented issues. This Subcommittee's jurisdiction 
over activities and programs related to the Federal Emergency 
Management Agency's all-hazards national preparedness system is 
well known and well established. But FEMA, with the help of 
this Subcommittee, must face new and unmet challenges, some of 
which may require language or amendments in the governing 
Stafford Act. The Subcommittee's jurisdiction over Federal 
management of natural and man-made disasters is comprehensive 
and broad, including support of the Nation's risk-based 
comprehensive emergency management system, of preparedness 
protection, response recovery and mitigation. The Congress has 
updated the Stafford Act as new challenges have come forward.
    Programs authorized by the Stafford Act and the Homeland 
Security Act of 2002 include the disaster relief programs, 
individuals and household programs, the public assistance 
program, emergency assistance program and hazard mitigation 
program. The current disaster relief program was established by 
the Disaster Relief Act of 1974, amended in 1978 by the 
Stafford Act, and amended by the Disaster Mitigation Act of 
2000. The Subcommittee conducts oversight hearings to ensure, 
among other things, that the national preparedness goal is 
consistent with the national incident management system and 
national response plan.
    Further, through oversight hearings, the Subcommittee, 
along with FEMA, identifies plans and procedures that will 
promote maximum efficient use of Federal emergency and disaster 
funds. During today's hearing, we intend to take a much closer 
look at certain aspects of disaster recovery, specifically the 
overall Federal housing policy and response to a disaster or 
emergency declaration.
    The response to Katrina reveals significant failures and 
shortcomings in Federal, State and local response to 
catastrophic disasters. Because of FEMA's notoriously poor 
performance following Hurricanes Katrina and Rita, the 
assumption often is that continuing problems must be attributed 
to the Agency's management or staff. This may be true.
    However, I have looked closely at the nature of some of 
these issues, including those in today's hearings. Some 
indicate apparent unnecessary rigidity, but others may indicate 
that FEMA may need additional authority to meet new 
circumstances.
    The Agency falls seriously short, however, when it does not 
bring matters to the Subcommittee that require new or amended 
authority. At the same time, Congress cannot continue to 
criticize and agency when our own oversight could uncover 
problems and new issues and help to resolve them.
    Recent press accounts regarding use of new and used 
trailers in Arkansas, as well as ongoing treatment of evacuees 
in Louisiana, seem to be the antithesis of good housing and 
relocation planning. Reportedly in Arkansas, thousands of 
excess trailers owned by FEMA sat empty while a short distance 
away, residents were dealing with the aftermath of a tornado 
that had destroyed many homes. Additional press reports found 
that in Hammond, Louisiana, FEMA abruptly relocated Katrina 
evacuees with very short notice and perhaps insufficient 
attention to what relocation would do to an already Katrina-
weary group of evacuees whose continued housing in trailers 
signaled that they had problems moving on as required.
    Today the Subcommittee will use these examples to examine 
FEMA's housing and relocation policy and attempt to identify 
the components of an effective policies that are necessary to 
ensure that temporary housing does not evolve into something 
more permanent, where necessary services cannot be provided 
under the Stafford Act.
    What actions are needed to assist the last evacuees who may 
be the lesser skilled, elderly or others who have been unable 
to find work or otherwise have greater difficulty making the 
transition to assume their lives as before must be discovered. 
In a FEMA-controlled area that has taken on an aspect of a 
temporary town, what must be done to help people move on? For 
example, can the evacuee community evacuate as intended without 
transportation to employment, to jobs that will provide the 
wherewithal to acquire housing and resumption of a normal life? 
The link between housing and jobs is basic. But there may be 
too few remedies available to FEMA to help the Agency adopt new 
approaches within the framework of the Stafford Act.
    Yet even if evacuees have been unemployed or elderly when 
the disaster occurred, they once lived in a permanent community 
and must be assisted in returning to their own or some other 
jurisdiction to resume at least whatever life they once had. It 
is unfair to evacuees to allow them to remain under FEMA's 
jurisdiction where only minimal services related to shelter are 
provided, while the statute intends and will continue to 
require them to leave within certain time frames.
    It is unfair to FEMA to expect the Agency to take on 
increasingly permanent functions that are beyond the Agency's 
statutory authority. Chairman Jim Oberstar once suggested the 
need for another round of Stafford Act reform. At the very 
least, new issues need creative rethinking within the Stafford 
Act parameters of the temporary relief that FEMA must provide. 
A massive disaster such as Hurricane Katrina in Louisiana and 
Mississippi, yes, and smaller disasters, like the tornadoes 
that recently struck in Alabama and Arkansas, that are arguably 
outside of FEMA's jurisdiction, nevertheless are raising issues 
that must be confronted.
    The Subcommittee thanks and looks forward to hearing from 
witnesses who have lived with or executed FEMA housing policies 
to help us in today's results-oriented hearing, whose title 
contains the operative word, solutions. I am pleased to 
recognize our Ranking Member of the full Committee, Mr. Mica of 
Florida.
    Mr. Mica. Thank you. It is so good to be with you this 
afternoon. I want to thank you, Madam Chairwoman, for hosting 
and chairing this important meeting and I also thank Mr. 
Shuster for his leadership as our Ranking Member. I am excited 
about having both of you, you are both members of action and we 
will get some things done.
    I did not mean to upstage my Ranking Member, but I wanted 
to come for just a minute, I will try not to come back too 
often.
    Ms. Norton. You are welcome any time.
    Mr. Mica. Thank you so much. I will try not to abuse my 
privilege of serving on all the subcommittees as Ranking 
Member.
    I have a statement that I will ask to be made part of the 
record.
    Ms. Norton. So ordered.
    Mr. Mica. Just let me say this. Mr. Ross' testimony, I have 
heard his public statements and I just finished reading the 
testimony he provided. First I have to thank Director Paulison 
and FEMA for providing assistance. We had three hurricanes in 
my district in the last three years. Then we had two tornadoes. 
The tornadoes gave me quite an education in how FEMA does work 
and some of the challenges that we face with some of these 
national declarations for disaster. Again, I thank them for 
what they have done to help people in the hurricanes and the 
tornadoes.
    I think in looking at improving the system, I would also 
share some of the concerns expressed by Representative Ross. 
Maybe you can help on this Mr. Shuster and Madam Chair, on this 
issue. There are two things that we noticed. First, I had the 
first tornado hit Christmas day in a town called Deland. This 
gentleman I have behind me, his name is Justin Dunn, he is from 
the town of Deland, was visiting my office. He is a student 
here on one of the programs. He is fortunate, his family was 
not hit.
    But the northern part of our community, on Christmas day we 
had a tornado come in. It was not a total catastrophic event. 
Now, if your house was in the way, it was catastrophic for you. 
It displaced maybe 80 to 100 people. A declaration for disaster 
was submitted shortly thereafter to FEMA.
    On February 2nd, we had our second tornado. This was a 
gangbuster tornado. There was no question on this. However, the 
week before Friday the 2nd, on that preceding Friday, I was 
handed a denial of the request for a declaration on the 
Christmas day disaster. To make a long story short, that was 
appealed. We did have a declaration again on the massive 
strike. We had to wait almost 30 days. It left us sort of in 
the lurch. Then of course, you can appeal.
    I found out very few appeals are ever granted, at least 
historically, as far back as the staff looked the past three or 
four years. I don't think any were granted. However, ours was 
granted. It was a little bit different circumstances, not that 
I was the Ranking Member or anything. But it so happened that 
we got two disasters that you could say didn't allow the State 
and locals to be able to handle a situation of that magnitude.
    So my first request would be if we could look at trying to 
speed up that. I found out from talking to other folks that 
this long period that you wait, sometimes up to 30 days, leaves 
everybody in the lurch. But speeding up that process, if we 
could, and having a declaration resolved in a shorter period of 
time would make a lot of sense. Then everybody knows what to 
do. And also the appeal. So that is the first recommendation.
    Then I thought, well, here I have a small number of people, 
maybe 50 trailers would help me, this is on the December 
disaster, and this is before we had the one that was really the 
belly-buster here. I thought, well, 50 trailers would help, 
like Mr. Ross. Then I found out that FEMA had trailers stored. 
Then I found out FEMA, I guess, is the biggest--I say 
trailers--mobile home owner in the United States, probably a 
quarter million of them, 60,000 of them are sitting vacant, 
some they are paying rent on and storage on, many of them in 
good conditions, others in various conditions.
    But I want to tell you, Madam Chairman, Mr. Shuster, that I 
spent this whole week in different conversations. At one point 
I think we had six attorneys on the phone trying to figure out 
how the hell to get 50 trailers that were close by in to help 
these folks out, at least on a temporary basis. We did not 
succeed in that, unfortunately, but again Mother Nature dealt 
us that second blow that made us eligible.
    The second point being that we need a way in smaller 
disasters to get some of this, now, we don't want to take down 
our stockpile of equipment that we have stored for major 
disasters. But there has to be some reasonable approach and 
then some reasonable protocol. We tried to get them to the 
State, but without a declaration they can't go to a private 
entity, and so on. So if we could speed that up and define what 
could be made available.
    Subsequent to that, I met with the State emergency 
management directors here in Washington when they were here. 
They felt that this proposal had merit, and I think that they 
would endorse it. So if we could work together on that, I think 
Mr. Ross' problem, we are trying to help people with a smaller 
disaster get a quicker decision out of the process, and then 
kind of make it look like Government does work and what the 
ground rules are for making it work.
    Thank you so much for indulging me. I didn't mean to come 
down and interject myself in this. But I think we can, working 
together and with recommendations from Director Paulison, make 
this better and work more effectively. Thank you.
    Ms. Norton. I appreciate the Ranking Member's intervention 
with your statement. As a matter of fact, Mr. Mica, the Florida 
tornado gave me what I had been looking for for an opening 
hearing. I did not want to simply go back all over the major 
disasters and what do we do. What the Florida disaster told me, 
Florida, where you expect hurricanes, Florida, where you do not 
expect tornadoes, is that we have to look at disasters that are 
not typically expected. Remember, 99.9 percent of all disasters 
are going to be natural disasters.
    But here come tornadoes in a place where you did not expect 
them. And the hearing that has been planned is going to look as 
well at something we have all been hearing, what would happen 
if in fact those levees that you keep hearing about in 
California burst, and they talk about those levees in exactly 
the same way as Louisiana, except that they probably are less 
sturdy, at the same time, there was an earthquake, which is the 
other disaster they expect. So I am trying to look forward at 
the same time that we look at the continuing problems that 
emerge that FEMA mst handle for the here and now.
    I would like to ask Mr. Shuster if he has an opening 
statement that he would like to make.
    Mr. Shuster. Thank you, Madam Chair.
    First I just want to say thanks to the witnesses being here 
today. I will keep my statement brief, I would like to submit 
it to the record in its entirety.
    I do want to say something briefly. I just want to echo 
your statement on the importance of this Subcommittee. As a 
matter of fact, I had the opportunity to be the Ranking Member 
on Railroads, which I took. But everybody assumed I was going 
to get off this Subcommittee, which I didn't, because I agree 
with the Chair that this Committee is extremely important, 
especially with the FEMA aspect. I look forward to working with 
you as we move forward.
    Also, one of the pilot projects for housing, we have 
someone here today who is going to testify, and I appreciate 
them being here, look forward to hearing from them, as well as 
to talk to Director Paulison about some of the reform aspects 
of the FEMA reform that we passed last year, some of it 
concerning to me, some of it good. I look forward and welcome 
him here today. Thank you for being here.
    With that, I yield back.
    Ms. Norton. Thank you very much, Mr. Shuster.
    I am going to ask all of the witnesses to come forward and 
sit at the table. I apologize that House business, which we of 
course have to accede to, has delayed this hearing. It is 
important enough for me to go as long as I have to in order to 
discover what has happened and what can be done about it.
    But in order to save time, we are going to ask all the 
witnesses to come froward at the same time. We are going to 
proceed as rapidly as we can, with apologies to those of you 
who came expecting the Congress to run on time. Where have you 
been?
    [Laughter.]
    Ms. Norton. That is just not how it works here. It is not 
because anyone intends it, it is because there is no way to 
avoid it.
    I want to thank all of you again for coming and for your 
indulgence in waiting out the votes. I am going to begin with 
Mr. Paulison of FEMA. You may begin, sir.

TESTIMONY OF THE HONORABLE DAVID A. PAULISON, DIRECTOR, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY; MICHAEL A. MOLINO, PRESIDENT, 
RECREATION VEHICLE DEALERS ASSOCIATION; BEN DUPUY, PARTNER, THE 
CYPRESS COTTAGE PARTNERS; PAMELA WILLIAMS, RESIDENT, YORKSHIRE 
 MOBILE HOME PARK, HAMMOND, LOUISIANA; MARGERY AUSTIN TURNER, 
 DIRECTOR, METROPOLITAN HOUSING AND COMMUNITIES POLICY CENTER, 
                        URBAN INSTITUTE

    Mr. Paulison. Thank you, Chairwoman Norton, Ranking Member 
Shuster and Ranking Member, Mr. Arcuri.
    Ms. Norton. Would you speak up? I really can't hear you at 
all.
    Mr. Paulison. We will try again. Thank you, Chairwoman 
Norton, Ranking Member Shuster, Ranking Member, Mr. Arcuri. 
Thank you for being here. I appreciate your time. I know how 
busy Congress is right now, and I think this Committee is going 
to be very important to FEMA. I am looking forward to working 
with you.
    I am here to discuss the post-Katrina housing under the new 
FEMA. I want this, the new FEMA, to be better, I want it to be 
a stronger and more nimble organization than you have seen in 
the past. We have already made substantial progress in 
improving our operations with major reforms in areas of 
communications, logistics, customer service, our renewed focus 
on reducing waste, fraud and abuse, developing a business 
approach to internal operations and also bringing in new and 
extremely experienced leadership into this organization. The 
old way of doing business simply does not work. We are not 
going to wait for local and State resources to become 
overwhelmed before we are prepared to act.
    But there are two areas I would like to focus on today 
about the process by which a Federal disaster is declared and 
the role of our Federal, tribal, State and local responses in 
aiding response. In particular, I want to discus the 
authorities and resources related to post-disaster housing.
    Let me start with the declaration process. When disaster 
strikes, the first step is a joint State-Federal assessment of 
the damage. Based on this assessment, the Governor can ask for 
specific supplemental aid if they believe the disaster is 
beyond the effective response capability of the State and the 
affected local communities. My written testimony goes into much 
greater detail on this process, especially the factors we 
consider when we are making a recommendation. Should the 
President make a formal declaration, FEMA immediately moves to 
work with our Federal, tribal, State and local partners to 
provide Federal assistance that includes housing assistance.
    Which brings me to the next point: the importance of 
working through and with our State and local partners. Under 
the Stafford Act, FEMA is authorized to provide emergency 
shelter and housing assistance. Sheltering is typically 
provided by State and local governments, as well as with our 
partner and non-profit organizations. FEMA can provide material 
and financial support for these operations, following an 
emergency or disaster declaration.
    FEMA can provide housing assistance in three primary ways. 
One is rental assistance by housing that is available on the 
ground in nearby communities. Two is repair or replacement of 
home assistance. And the last option, used only when the first 
two are insufficient, is direct housing, such as travel 
trailers and mobile homes in group sites. But these are not 
designed for long-term solutions. The authorities and programs 
involved envision temporary aid, while individuals work with 
their insurance companies, State and local governments, non-
profit organization and other Federal agencies to find 
permanent housing as part of the individual's road to recovery.
    As you can see, FEMA does not respond alone. We must work 
hand in hand with our partners in any response.
    Before I conclude, I would like to touch briefly on FEMA's 
management of two recent housing issues. First, the relocation 
of 54 families living in Hammond, Louisiana. The owner of that 
facility repeatedly did not respond to health and safety issues 
and concerns raised by FEMA and the Louisiana Department of 
Health and Hospitals. I have detailed that in my written 
response. So FEMA moved in to address the issue.
    In our haste to provide residents with safer housing, some 
residents were not pleased by the coordination and the 
consultation provided. For that I am sorry. But FEMA made the 
right decision to move people out. We did not evict anyone. We 
found housing for everyone. But we are going to work in the 
future to improve our coordination.
    The second incident I would like to discuss is FEMA's 
response to the storms and tornadoes that struck Desha County, 
Arkansas in February. Following the process I just discussed, 
and in discussing the responsibilities with local governments, 
the resources available to the State and the extent of the 
damage, a request for a Federal declaration in this case was 
denied. But I am pleased to say this does not mean we are not 
finding new ways to help while still complying with the law. 
Let me be very clear: we are going to follow the statutory law 
that we are supposed to do.
    In this case, FEMA worked with our partners at GSA who did 
an outstanding job to help us identify excess housing units 
that could be transferred to Arkansas using existing authority. 
These were not new, but like-new units. I was personally on the 
phone with the Arkansas director of emergency management and 
made sure he had access to the housing units he felt he needed. 
We have also told the State, we will continue to work with them 
to provide them as many units as needed under this program. The 
Desha County incident provided the impetus for us to use this 
new tool to provide aid while still following the confines of 
the law.
    Madam Chairwoman, what I have described to you is both the 
process by which FEMA implements the Stafford Act to determine 
the eligibility of presidential declaration of an emergency or 
major disaster and FEMA and the States as actors in that 
process. It is a partnership where each actor has specific 
responsibilities and where there are certain expectations.
    Our challenge is to engage that process more openly, more 
quickly and with a shared focus on best meeting the needs of 
disaster victims who place their faith and confidence in 
government, whether it is Federal, State or local, to act in 
their best interests.
    I want to thank you for the opportunity to be here today, 
as I said earlier, and I am looking forward to your questions.
    Ms. Norton. Thank you very much, Mr. Paulison.
    Mr. Molino.
    Mr. Molino. Madam Chairwoman, members of the Subcommittee, 
thank you for inviting me here to testify. I am here to tell 
you about the impact that Government sales of RV trailers could 
have on the market and the general public. My organization, 
RVDA, is a not-for-profit national association of RV dealers. 
It represents more than 2,700 small business people that sell 
travel trailers and motor homes.
    According to the most recent U.S. business census, 58 
percent of RV dealers have eight or fewer employees. In the 
aftermath of Hurricane Katrina, RV dealers began delivering 
travel trailers to FEMA just days after the hurricane ended. 
This was an unprecedented use of RV travel trailers during a 
national emergency. RV dealers responded and cooperated in a 
time of great need.
    Now, RV dealers respectfully request that our Government 
take into consideration the impact that Government sales of 
thousands of RV travel trailers will have on dealers, their 
employees and public safety. Media reports and our own contacts 
at FEMA tell us the Agency, through GSA, is preparing to 
auction as many as 46,000 travel trailers to the general 
public. To put this in perspective, last year the industry 
retailed 154,693 new travel trailers. Forty-six thousand 
trailers approximates 30 percent of the entire 2006 new unit 
sales for the entire United States.
    When you drill down to the local level, the impact is even 
more dramatic. For example, last week, the GSA auction web site 
listed 61 trailers for sale in Purvis, Mississippi on March 
19th. In 2006, a total of 79 new travel trailers were sold in 
the entire county of Lamar, where Purvis is located. In one 
day, the Government will try to sell the equivalent of 77 
percent of the travel trailers registered in that county in 
2006. The public auction of so many vehicles at one time can 
ruin that local market for months to come.
    The practice of selling directly to consumers also raises 
significant public safety concerns. RVs include electrical, 
plumbing and propane gas systems that power sophisticated 
heating and cooling units. They have fire safety equipment and 
gas leak detectors. Consumers could face many problem unless 
the vehicles are thoroughly checked out, serviced, repaired and 
reconditioned by qualified technicians.
    We understand that the Government conducts liquidation 
auctions where it sells items in large quantities. Selling 
these trailers in lots instead of individually seems to make 
better sense for all concerned. Requiring sales in lots would 
make it more likely that the vehicles get back into the stream 
of commerce through a licensed dealer who is capable or 
ensuring the safety and serviceability of the unit.
    RVDA is in a unique position to help. We can help solve the 
Government's problem of too many travel trailers, while 
minimizing the disruption of a small but growing industry that 
provides Americans a great way to vacation and travel. We can 
also help plan for the acquisition of trailers for future 
disasters. We can help inform dealers about FEMA's needs.
    In the liquidation phase, we could inform dealers when 
surplus trailers would be available, where the trailers are 
stored and other important information. More dealers may want 
to bid on the trailers, but the current auction process is not 
well known among dealers and is difficult to understand.
    By opening the lines of communication with RV dealers, FEMA 
and GSA can get more of these trailers into dealerships where 
they can be serviced and sold in a way that is in everyone's 
best interests. America's RV dealers are looking for solutions 
that meet the needs of the public, the Government and the RV 
industry.
    Thank you very much, Madam Chairwoman.
    Ms. Norton. Thank you, Mr. Molino.
    Like Mr. Paulison, your testimony is much appreciated and 
very helpful.
    Mr. Dupuy.
    Mr. Dupuy. Thank you. I am Ben Dupuy, I am a native New 
Orleanian and I am Executive Director of Cypress Cottage 
Partners. Thank you for the opportunity to testify today.
    The shortcomings of FEMA's emergency housing options 
allowed for under current law are well known. The Inspector 
General of the Department of Homeland Security has reported 
that some of FEMA's group sites on the Gulf Coast could be 
operating for five or more years, and that the living 
conditions are far from ideal.
    For an 18 month period, the cost of FEMA trailers and 
manufactured homes are nearly $60,000 and $90,000 respectively. 
With 70,000 trailers in use in Louisiana, as of February 2007, 
that amounts to a cost of at least $4.3 billion in that State 
alone.
    Using $4.3 billion for temporary housing that has no hope 
of becoming a suitable permanent solution is clearly not in the 
best interests of displaced citizens, affected communities or 
taxpayers. The combination of the unprecedented demand for 
disaster recovery housing and the shortcomings of the options 
available under the Stafford Act prompted Congress last year to 
appropriate $400 million to FEMA for the alternative housing 
pilot program to one, identify new solutions for disaster 
recovery housing; and two, transition displaced families into 
housing more appropriate for long-term use.
    The legislation included a one-time waiver of the Stafford 
Act so as to make it possible for homes built under this 
program to be occupied longer than 18 months. The selected 
proposal for Louisiana was the Cypress Cottage Partners' 
solution, to build homes that transition from temporary housing 
to permanent communities, or what we call temp-to-perm. The 
homes Cypress Cottage Partners will build are affordable, 
permanent, quickly constructed, appropriate for various sizes 
of families, able to withstand winds of up to 140 miles an hour 
and easily adaptable to local building codes and architectural 
styles.
    We will build five different models of single family homes, 
ranging in size from two to three bedrooms. We will also build 
single story, multi-family buildings with units ranging from 
one to four bedrooms.
    A significant problem that FEMA encountered on the Gulf 
Coast in the wake of Hurricanes Katrina and Rita was the 
placement of temporary group sites. Many communities, not 
wanting to be saddled with trailer parks that they feared could 
become permanent, prohibited the building of group sites. In 
contrast, our temp-to-perm model appeals to local governments 
in several ways, including aesthetics, size, speed to construct 
and ability to transition to permanent communities.
    Our homes will have a higher initial cost than existing 
temporary housing options. However, they will generate 
significant savings over their total life cycle in comparison 
to travel trailers and manufactured homes.
    Most importantly, the homes we build will enable displaced 
citizens to move more quickly into housing appropriate for 
long-term use. If all the trailers in group sites in the New 
Orleans area were instead temp-to-perm homes, the city's 
affordable housing crisis would certainly not be as severe as 
it is today.
    We plan to build our homes at four sites in southern 
Louisiana. Two of the sites are in the New Orleans area and 
were affected by Hurricane Katrina, and two of the sites are in 
southwestern Louisiana and were affected by Hurricane Rita. Two 
hundred and four thousand homes in Louisiana experienced major 
or severe damage from Hurricanes Katrina and Rita. There is a 
much greater demand for permanent homes, like the ones we are 
building, that can be delivered through Louisiana's $74 million 
alternative housing pilot program grant.
    Several solutions exist. First and most significantly, 
Congress should encourage FEMA and OMB to write the regulations 
and policies necessary to implement Congressman Richard Baker's 
important provision in the FEMA reform legislation passed at 
the end of 2006 that amends the Stafford Act to enable the 
Federal Government to build permanent housing in the wake of 
large-scale disasters.
    Congressman Baker, a long-time member of the Transportation 
and Infrastructure Committee, has been a real leader in the 
effort to change the Stafford Act to allow for the construction 
of permanent homes following catastrophic disasters. The 
legislation you worked to enact last year will result in a 
remarkable improvement in the Government's response to future 
housing crises.
    Second, Congress could dedicate part of the funds from the 
proposed GSA affordable housing program to the appropriate 
agencies in Louisiana and Mississippi to build additional 
permanent homes. Third, as Governor Blanco and members of 
Louisiana's Congressional delegation have advocated, Congress 
could appropriate funds to a Federal agency for the purpose of 
creating additional units.
    Finally, the State of Louisiana could use proceeds from the 
sale of homes we build to create a revolving fund that could be 
used to generate additional permanent homes.
    In conclusion, to respond to future disaster situations, 
the Federal Government should have among its available 
solutions the ability to deploy temp-to-perm housing that 
enables displaced citizens to return quickly to their 
communities and that prevents the prolonged purgatory of life 
in temporary group sites. The Cypress Cottage Partners Model is 
that solution. Thank you.
    Ms. Norton. Thank you again for that very helpful 
testimony, Mr. Dupuy.
    Ms. Williams.
    Ms. Williams. Good evening. I am from Port Selfa, evacuated 
to Washington Parish to Hammond. So I had a long ordeal 
throughout Katrina.
    Where can I start? I evacuated on a school bus to the 
shelter in Washington Parish. Not being a bus driver, not 
licensed to drive a bus, I evacuated 250 people. From 
Washington Parish to Hammond we landed. In a shelter in 
Emmanuel Baptist Church, we were in a shelter for two months. 
From the shelter to Yorkshire Trailer Park in October 2005.
    There we became family, the ones that were able to get a 
full-size mobile home. So we are now scattered, because of 
hazards in the park. You did the right thing, but it was just 
too fast.
    I am a little nervous about this situation, first time 
speaking on the issue.
    Ms. Norton. You are doing just fine, Ms. Williams.
    Ms. Williams. Thank you.
    Well, I was in a full-size mobile home in the trailer park 
and now we are in camper trailers, me and my family. So what 
they did for us, they relocated us from Yorkshire to Orlean 
Rogers Park into camper trailers, for me and my family, gave us 
an extra trailer for storage, I had to put some of my things in 
storage.
    My kids go to school, but some people were not as fortunate 
as I was. Some people that were in the park got scattered. 
Their children are not in school. That is where that problem 
comes in on that issue.
    Everybody wants to go home. We are not from Hammond. I'm 
from Plaquemines Parish. Some people are from New Orleans. They 
all want to go home. They all want the State to help us get 
back home.
    I had a house, some people had mobile homes. I had a five 
bedroom house Katrina took from me. Now I have nothing, me and 
my kids. So we are still battling, trying to make it home. We 
would like to know what can the State, Congress, FEMA do for us 
to help us get back home. We all don't want to be scattered all 
over. Sometimes when we go into different places, we don't feel 
welcome in that area, because we are not from that area.
    So what can be done to help us get back home, is what I 
would like to know.
    Ms. Norton. Thank you very much, Ms. Williams. It is 
important to hear straight from someone who has lived through 
this. I appreciate your coming all the way up here. I know it 
has been a real sacrifice for you.
    Ms. Williams. Yes, ma'am, it has.
    Ms. Norton. I know you work every day and you have to get 
back on a plane tonight.
    Let me go on to Ms. Turner so we can quickly get to 
questions.
    Ms. Turner. Thank you. I appreciate the opportunity to be 
here today. I direct the Center on Metropolitan Housing and 
Communities at the Urban Institute, where my research focuses 
for the most part on segregation, poverty concentration and its 
effects on families and on communities.
    More than 18 months after the devastation of Hurricanes 
Katrina and Rita, too many low-income families are still living 
in FEMA trailer sites. The numbers seem to change day by day, 
but I have read recently that thousands of displaced renters 
are still living in over 115 group trailer sites constructed or 
managed by FEMA.
    I visited one of these sites almost a year ago and despite 
the best efforts of the management staff, it really epitomized 
everything that housing policy can do wrong for families. 
Hundreds of tiny trailers were lined up in very efficient rows 
in a huge, fenced-in field, miles from schools, jobs, grocery 
stores, playgrounds or doctors' offices. Social science 
research teaches us that clustering large number of vulnerable 
families in isolated, under-served locations is a recipe for 
disaster. Historically, many federally-subsidized rental 
housing projects have made the same mistake, trapping poor 
families, especially minorities, in distressed inner-city 
neighborhoods. In these neighborhoods, jobs are scarce, schools 
are often ineffective, crime and violence are common and young 
people see few opportunities for success.
    So a growing body of research evidence indicates that 
living in this kind of high poverty community undermines the 
long-term life chances of families and kids, cutting off access 
from mainstream social and economic opportunities and 
perpetuating inequality. Young children, especially like the 
children who were so badly shaken by the trauma and 
displacement of the storms, are especially vulnerable.
    Public policy should focus on providing meaningful, 
permanent housing choices in decent neighborhoods for the low-
income families who are currently living in trailers. Housing 
vouchers can be a part of this solution. They offer a critical 
tool for supplementing what low-income families can afford to 
pay for rental housing, and when they are implemented properly, 
they let families choose what type of housing and location is 
best for them.
    But vouchers alone won't do the job. Many families will 
need hands-on help finding homes or apartments where they can 
use vouchers. Based on small scale demonstrations in 
communities across the Country, we have actually learned a lot 
in recent years about how to help families make the most of 
housing vouchers. When families receive hands-on assistance 
with their housing search, along with basic support and 
counseling to help them find jobs, arrange for child care, 
obtain medical attention, a housing voucher can open up 
opportunities for stability, security and economic advancement.
    In addition to vouchers, Federal policy really must focus 
on making more affordable housing, both rental and sales, 
available in Gulf Coast communities as quickly as possible. 
Most new construction is going to take a lot of time. I think 
the modular solutions described by Mr. Dupuy look really 
promising. But it is also important to take steps to bring the 
existing stock of rental housing back into use. This could be 
accomplished by offering grants and low interest loans to 
rental property owners who agree to reopen their buildings and 
keep rent reasonably affordable and by purchasing single family 
homes whose owners do not want to return and transferring them 
to non-profits that will fix them up and make them available 
for rent.
    In this process, it is really important to focus also on 
combating possible discrimination by housing providers, in 
order to ensure that low income and minority families have full 
and fair access to the homes and apartments that are available.
    Finally, as long as some families remain in trailer 
communities, they need on-site services to counteract the 
damaging effects of isolation and distress. Key services 
include health and mental health care, job training and job 
search assistance and high quality child care and after-school 
activities. Clustering very large numbers of low-income 
families in isolated trailer sites was a grave mistake in the 
first place. We know how to do better. The Federal Government 
should be drawing on the housing policy experience of the last 
decade to create opportunities for families to leave the 
trailer site sand choose permanent affordable housing in 
opportunity-rich communities.
    Thank you.
    Ms. Norton. Thank you very much, Ms. Turner. You turn us 
toward solutions, indeed.
    Because Mr. Paulison has to go in connection with his 
official duties, I am going to focus on a few questions that go 
to the whole basis for this hearing. I think all the testimony 
has provided a basis to talk about solutions and not merely the 
problem.
    Let me tell you about the assumption of my questions. I am 
not assuming a brave new policy. I am assuming that FEMA can 
provide only temporary assistance. And you can bet your bottom 
dollar Congress is not going to make it into some new permanent 
housing agency.
    I am assuming much of the status quo, with changes that can 
be made either administratively or by statute if necessary. 
Let's clear up this horrible number of trailers. Ms. Turner 
testified as to the numbers she hears, the press says the 
numbers they hear. There was other testimony by one of you 
about 46,000.
    Mr. Paulison, how many trailers are in your inventory at 
this moment, at this time, I should say?
    Mr. Paulison. Around the Country, we have occupied 88,000 
travel trailers and mobile homes, with families living in 
those. In our inventory, totally, I can tell you at Hope, 
Arkansas, we have, as Congressman Ross said, we have over 8,000 
new mobile homes. We have about probably less than 2,000 travel 
trailers. But I have about 40,000 travel trailers that have 
been used that are not usable. These are the ones that we are 
going to be auctioning off. We have 65,000 total nationwide in 
storage.
    We are getting back in from Katrina, from others around the 
Country, about 800 a week that are coming in. Those are the 
ones that Mr. Molino was talking about that we are considering 
auctioning off or giving them to volunteer agencies, selling 
them to the people who are actually living in them, those types 
of areas. That is kind of where we are with the amount of 
trailers we have in stock, travel trailers and mobile homes.
    Ms. Norton. Mr. Paulison, you used the word auction. I am 
going to quote from Mr. Molino's testimony, because I will tell 
you, it broke my heart to hear Ms. Williams, it broke my heart 
to hear his testimony, too. He talked about the sale is 
scheduled for March 19th. The GSA auction web site listed 61 
trailers for sale in Purvis, Mississippi. Anybody heard of 
Purvis, Mississippi? I have not. That tells you how small a 
community it must be. It may even be a hint as to what kind of 
an economy it must have. Actually, Mr. Molino supplies some 
testimony in that regard, too.
    He says, Purvis is in Lamar County, 2006 total of 79 new 
travel trailers were sold in the entire county. This means that 
in one day the Government will try to sell 77 percent of all 
the travel trailers registered in that county in 2006. As you 
can imagine, the public auction of so many vehicles at one time 
can ruin the local market for months to come.
    Now, Mr. Molino, if not him, I think it was him, suggested 
that there was another way to go about it, and that is selling 
by lot as opposed to by auction, which in ordinary parlance 
would be seen as dumping. I would like your answer on, is there 
an alternative way to do what you concede has to be done, and 
that is to get them off your hands and give the taxpayer back 
whatever you can, without in fact destroying the local market 
in parts of the Country where people really live in these 
things? It is not D.C. A lot of people live in these trailers. 
So there is a market.
    What about the suggestion that has been offered?
    Mr. Paulison. We are very sensitive to Mr. Molino's 
organization as far as the impact it could have on the 
recreational travel trailer business. However, they were not 
complaining when we were buying millions of dollars worth of 
these things. However, the ones that we are selling are not 
what we consider mission-ready.
    Ms. Norton. I am sorry?
    Mr. Paulison. These are not what we consider mission-ready. 
These have been in the field for a long time.
    Ms. Norton. Please answer my question, Mr. Paulison. I 
don't want to hold you here beyond--I asked you about a 
practical suggestion that was made by Mr. Molino and I told you 
this was a results-oriented hearing. I need to know whether as 
an alternative to doing this by auction, which destroys the 
market in parts of the Country where these trailers are 
commonly used, because people live in them and therefore there 
is a market, is there the alternative available to you as he 
suggested, to sell them by lot?
    Mr. Paulison. That is an alternative. We do not agree with 
that. We do not think we can get rid of the ones we need to get 
rid of using that method.
    Ms. Norton. All right. Let me ask you why you believe that 
you could not, in fact, because you do have a duty to sell 
them. We are not trying to say you should not get whatever you 
can. Why do you believe that selling by lot would be 
impossible?
    Mr. Paulison. It is not impossible. It is a way to do that. 
However, the only ones who could purchase those would be RV 
dealers, instead of individuals. We have been very successful 
in selling these to individuals who can take those and spend 
the time to refurbish them, in mostly the camping trade.
    Ms. Norton. Let me ask Mr. Molino. I understand that it 
would be preferable, and we have here a typical situation where 
you have to find an answer between a rock and a hard place. The 
rock is the taxpayers are due back whatever is possible and 
appropriate. The hard place is, we are not going to destroy, or 
we think it is outrageous to destroy Purvis, Mississippi.
    I am looking for a solution there. Mr. Molino, your 
response to Mr. Paulison?
    Mr. Molino. We are looking for solutions also. We looked on 
the lot sales as a way of getting it back into the stream of 
commerce and the dealers could fix up the units and sell them 
back at retail.
    Ms. Norton. So you believe that dealers would be willing to 
buy by lot on those conditions?
    Mr. Molino. I believe so. I don't think we have tested it. 
I know that in one of the auctions, one of the dealers bought 
100 units recently, a dealer up in Alberta, Canada. So there is 
a market for lot sales. I would like to be able to work this 
out with FEMA and Mr. Paulison has offered to have a meeting to 
talk about this. So that is a good start to finding solutions.
    Ms. Norton. Mr. Molino, thank you.
    The only problem I had with your answer, Mr. Paulison, is 
you quickly said, that is not the way to do it.
    Mr. Paulison. I have also offered to meet with him and 
GSA------
    Ms. Norton. You didn't even say that.
    Mr. Paulison. I am sorry. I should have said that------
    Ms. Norton. If you had said that, I would not have had the 
next set of questions. So save me some time. Look, if you want 
to do something like this, there is no way to do it without 
talking with the industry. That is why it was my suggestion, 
minority didn't have to say, why don't you invite some people 
from the industry, I said, bring the industry in here so we can 
see if there is some way to get to a workable solution. Perfect 
solutions are not available to the Congress of the United 
States. I doubt if they are with you.
    I would like, without saying what should happen, I have no 
idea, if I were you, Mr. Paulison, I would try some place, 
somewhere, try it out on an experimental basis, before dumping 
this in some small community and wiping out the market 
instantly. I believe that the Congress of the United States 
wants you recoup the taxpayers' money, but you have a long time 
doing this, would mind if you indeed had that meeting within 
the next 30 days and reported to this Committee, and I mean 
within 30 days, because time is ticking.
    What you think is possible, I have suggested that some kind 
of experiment to happen, you can find out pretty quick if you 
offered it. I would like to have that plan within 30 days, or 
if a plan is impossible, to tell me why.
    I know if you have to go, therefore, if you answer my 
questions directly, you will go even quicker. No declaration. 
We understand what the statute says. The problem I had with 
your decision not to do a declaration in Arkansas had to do 
with a reason that was given in the press. I will give you an 
opportunity to tell me that perhaps that was not the reason. 
That the community involve din Arkansas was told that somehow 
the State, I guess it was, had a surplus, when in fact in the 
same general area, where there had been tornadoes, there had 
been declarations and those States also had surpluses. We all 
have them for the moment, they will disappear quickly.
    But why is surplus the operative standard as opposed to 
need, and is that in the statute?
    Mr. Paulison. No, ma'am, we did not consider the surplus in 
the State. It had nothing to do------
    Ms. Norton. Sorry?
    Mr. Paulison. We did not consider the surplus in the State. 
It had nothing to do with the decision.
    Ms. Norton. Where did they get that from?
    Mr. Paulison. The Governor made a comment that they had a 
surplus, and I am assuming that is where they picked that up. 
The decision was made because there were only 37 homes 
destroyed and 25 homes heavily damaged, total, that were 
unoccupied, that it did not meet the level of a disaster 
declaration for the President to sign. I made the 
recommendation that we not approve that.
    Ms. Norton. I am going to ask one more question before I go 
on to the Ranking Member. I just want to get some of this on 
the record.
    Surplus. There are surplus trailers. Let's assume for the 
moment there is nothing we can do or would want to do, I don't 
know, we will have to look there, at the fact that no surplus 
was held. We are going to look into the other communities that 
had tornadoes in the same surrounding area. That 
notwithstanding, you apparently believed that you could not 
sell excess trailers to the Governor or the local community and 
told them that until the matter was exposed in the press.
    Then as the Post said in an editorial, FEMA is 
congratulating itself in finding 15 trailers or so that it 
could sell after telling them, sorry, that is not within their 
authority. Would you explain, please?
    Mr. Paulison. What you read in the press is not accurate. 
They were asking for the new trailers that Congressman Ross 
talked about. The Post-Katrina Reform Act does not allow us to 
do that. It makes us go through a GSA process and offer them to 
normal, to Federal agencies first, primarily focusing on the 
Bureau of Indian Affairs, to get them to the Indian tribes.
    Had I gone through that process, the State would not have 
seen one travel trailer or one mobile home. I got with the 
State emergency manager, I said, what do you need, and they 
said, I need 30, I need 23 mobile homes and 7 travel trailers. 
I said, I can access good, almost like-new used ones to you 
through GSA, we can expedite that and you can have them the 
next day. He said, I will need to talk to the Governor. The 
next morning he called back and said, that is exactly what I 
need. We worked with the GSA and over that weekend, that was a 
Friday night, Saturday and Sunday, the State came and picked 
those trailers up.
    These were like-new but used, so I didn't have to use the 
process that is laid out in the Post-Katrina Reform Act.
    Ms. Norton. That is typical of what I meant in my opening 
statement, when I said if there is a problem, if you notify us 
then at least it won't arise again.
    Mr. Paulison. And this is the first time we have used this 
process, and that is why we were pleased to be able to work it 
out with general counsel.
    Ms. Norton. What I am not pleased at is that obviously it 
did not work out right away. Somebody did not step up and say, 
okay, here is the alternative. Because it all made the 
newspaper, everybody came down on FEMA again. It seems to me 
that somebody has to say, look, do you think the Governor would 
have insisted on new trailers if somebody from FEMA had said, 
here is something in the alternative? And indeed, that might 
have been the appropriate thing to do in the first place, 
rather than offer your new stock, which you may be saving for 
the next disaster.
    Anyway, we will look at it again. I am complaining about 
inflexibility on the part of FEMA and where you don't need a 
change in statute, but you need somebody sitting there thinking 
about the disaster and thinking about what is possible, what 
are my options.
    I am going to ask Mr. Shuster to ask any questions he may 
have.
    Mr. Shuster. Thank you very much.
    My question, I am a former automobile dealer, so when we 
are talking about selling things in lots, used cars, I 
understand exactly where Mr. Molino is coming from. But I also, 
Mr. Paulison, understand where you are coming from, I think, 
and tell me if I am wrong, if we sell them in lots, it has been 
my experience, when I used to sell used cars in lots to people, 
we would tend to get less money, because they take some of the 
good, they take some of the bad, and so we lose out on the 
money we get back. I think that is where we are coming at. I 
know that in the small community that I live in in 
Pennsylvania, along the river, I have seen some of these FEMA 
trailers, people buy them and refurbish them, I think that is 
what you are talking about, you get a better, you can get more 
money selling them to individuals than you can selling them in 
lots.
    But on the other hand, you sell them in lots, you may be 
able to move them out faster. So it becomes a question of, do I 
want, and I do not know that this is a question, is it a better 
return if you are selling them individually, and that is more 
important in getting them out in mass quantity?
    Mr. Paulison. That is why I want to sit down with the 
industry and with GSA to work this out. There maybe a 
compromise here where we can do both. In the past, we have had 
better luck selling them individually. They have sold faster 
and we have gotten more money. We have been averaging 40 cents 
on the dollar, which is not bad for a trailer that has been out 
there in use for a long period of time.
    However, I am very sensitive to the organization's concern 
and the industry's concerns. We will sit down and work with 
them. Madam Chair, I will have something back to you within 30 
days.
    Mr. Shuster. The second question is, under the FEMA Reform 
Act that we passed in the last year, there was a provision in 
there actually offered by Senator Pryor from Arkansas that 
forces us to go through the GSA process. I think that is 
correct.
    Mr. Paulison. That is correct.
    Mr. Shuster. Again, I think it is important that, and you 
can comment on it in a minute, but as the Chair has said, it is 
important that people at FEMA are thinking outside the box. I 
think, and you can talk about it a little bit more if you 
would, the situation in Arkansas, you did come, you found a 
creative way to use those trailers and get them out there, is 
that accurate?
    Mr. Paulison. That is correct. I felt that we were very 
flexible in forward leaning and trying to find some way to say 
yes as opposed to saying no. I challenged staff to do that, and 
they went back and found a legal method to do this, where we 
were able to get those trailers outside of a declaration, 
something we have never done before, to get those to the people 
who needed it, without violating statute and still getting the 
job done.
    Mr. Shuster. I think that is exactly the kind of thing we 
want to see from FEMA. I think part of the problem is creative 
solutions are not coming out of FEMA because there are folks up 
here on the Hill and in the media that the first time they see 
something at FEMA that does not look quite right they are all 
of a sudden jumping all over you and they want to have 
investigations or the media is doing a witch hunt. It is 
important in an emergency I think for you folks at FEMA to be a 
little creative and try everything you can. Because in the end, 
that is what we are trying to do, is help people. Sometimes we 
make mistakes, whether it is us up on the Hill or you at FEMA. 
We can't hang people for trying to go out there and try 
something creative and unfortunately sometimes stumbling and 
falling.
    Mr. Paulison. Thank you. I appreciate that. I know, Madam 
Chair, we are trying to move quickly. But I do need to say, 
what we did in Florida and Georgia and Alabama, we moved even 
before the State even asked for declaration. Arkansas, I 
delayed that decision because I did not want to say no. I could 
have said no the first day, because we simply did not have the 
amount of devastation. I kept going back to the State, going 
back to our staff, is there more damage, is there more damage, 
give me more information. Maybe I should have said no sooner. 
But I really wanted to say yes, and I just couldn't get there. 
So that was part of the delay, and I won't make that mistake 
again. We will make a decision quickly so the Governors can 
make the decisions they have to make. You are absolutely right 
and thank you for that comment.
    Mr. Shuster. I have no other questions.
    Ms. Norton. I am going to go to Mr. Arcuri.
    I do want to say, look, you have not seen me say, let's 
change the declaration. I do not have enough information to 
know. I think that was set for a reason. I am looking for 
solutions that leave us with a status quo but are able to use 
our out of the box thinking, rather than say, okay, here come 
500 more communities that we are supposed to pay for and we 
have no money. So I don't want to raise those kinds of 
expectations. I juste want you to think harder.
    Mr. Arcuri.
    Mr. Arcuri. Thank you, Madam Chair. Thank you all very much 
for being here, especially Ms. Williams, thank you for taking 
the time to share your story with us. I appreciate it very 
much.
    Just a short question, Mr. Paulison, Mr. Molino. Is there 
any consideration given to which way of selling, whether by lot 
or individually, is more advantageous or more conducive to the 
needy or the lower income being able to purchase a trailer? 
Secondly, is that a consideration for FEMA?
    Mr. Paulison. I think that is. Most of what we are selling, 
quite frankly, are travel trailers. They are not something you 
would live in. The people who purchase these are using them 
mostly for camping and those types of things. So I don't know 
that that would meet a low income type of thing.
    We do also have the ability to donate these to volunteer 
organizations. We can donate them to States and other areas 
that can be used for people of low income, use for volunteers 
who are providing services and things like that. So there is a 
method. We do have the authority to do that, and we are going 
to push very much to do a lot of that.
    But like I said, we already have 40,000 of these in stock 
that are used and we have to get rid of, and I am getting 800 a 
week back in. We are out of space as to where we are going to 
store them. So we have to do something to dispose of them and 
we need to do it quickly before hurricane season, which is 
coming up very soon.
    Ms. Norton. Thank you, Mr. Arcuri.
    We are going to let you go. I want to ask, on the GSA 
process, we of course have jurisdiction over GSA, I will tell 
you, I am inclined, the fault that one would lay at FEMA is 
that you did not immediately suggest that these used trailers 
would have probably been more appropriate, if anything, and 
didn't send them to that process. You know what? At the moment, 
I don't want to disturb the fact that GSA has the process. I 
just want you to send people through the GSA process. I don't 
want to put, what is that old spiritual, he will not put on 
your shoulders any more than he will give you strength to bear? 
I am not sure about that, if we give FEMA yet a new process, 
the GSA process.
    So I think what I would prefer at the moment with respect 
to people who have needs, we are not talking about the State 
now, who have needs where the GSA process could click in, or we 
could by statute say, give that process to you, I would only 
ask you to send out something to say, the first thing you 
should do is go to the GSA process if somebody from an area 
where no disaster has been or could be declared. That just 
might solve that problem.
    I need to know, Ms. Williams is going to have to go 
shortly, too, because she has come all the way from Louisiana 
and has to go all the way back. I heard her say she had a five 
bedroom house. You owned that house?
    Ms. Williams. Yes.
    Ms. Norton. She owned a five bedroom house. Ms. Williams, 
you are employed by whom?
    Ms. Williams. Plaquemines Parish government.
    Ms. Norton. How far is that from, I have a question to ask 
Mr. Paulison of whether he can help people like you, how far is 
that from--is your place of employment--from------
    Ms. Williams. Hammond.
    Ms. Norton. The one now, the FEMA area before.
    Ms. Williams. An hour and a half to two hour ride.
    Ms. Norton. How do you get there every day?
    Ms. Williams. Drive.
    Ms. Norton. We are very fortunate. Ms. Williams had a very 
good job, I don't know how many people like that might be 
spread around in trailers, everything was gone. She had a car, 
because she had a good enough job to get there on her own 
transportation. Suppose Ms. Williams was exactly as she is now, 
except that her car had been wiped out too, except that the 
parish said, Ms. Williams, you can get back here you can have 
your job. But we can't get you back here. And she didn't have 
any way to get back here.
    Do you think, I am not asking if FEMA could do it, do you 
think that we would all be better off if there were a way to 
get people who have jobs to their jobs, so that they could 
perhaps relocate quicker and fulfill statutory mandate of 
keeping people in trailers on a temporary basis?
    Mr. Paulison. Do you want me to answer that?
    Ms. Norton. I am asking you the question.
    Mr. Paulison. I am sorry, I thought you were talking to Ms. 
Williams.
    Ms. Norton. I certainly was not. She has a car. I recognize 
what would happen if she didn't have a car and had been wiped 
out but has a job. I just want to know, I am using her as a 
hypothetical, somebody, forget Ms. Williams for the moment, 
somebody who has a job but no way to get there and has been 
wiped out, is there anything that FEMA could do now, or for 
that matter in your view should be able to do to get such a 
person closer to employment?
    Mr. Paulison. The difficulty--the answer is yes in one 
sense. The difficulty was finding places to put our group 
sites, to put them in place where people were before. In 
Plaquemines Parish, that is extremely difficult, because that 
whole area was wiped out.
    Ms. Norton. Is there housing anywhere in Plaquemines Parish 
where you could move now? I am talking about Ms. Williams.
    Mr. Paulison. I don't think we have any group sites in 
Plaquemines.
    Ms. Norton. Look, she has a job. I am trying to get her out 
of a trailer altogether.
    Ms. Williams, is there housing closer to Plaquemines Parish 
or there which is rental housing, for example?
    Ms. Williams. Yes.
    Ms. Norton. I understand you even had some benefits that 
came to you as a result of your insurance or the like.
    Ms. Williams. In the Bellechase area, that is the only area 
that maintains housing in that area. But as far as the rest of 
the parish, it was wiped out. So they do have camper trailers 
on one side of the parish and mobile homes on the east bank of 
the parish. That is a question that some of the parish people 
would like to know, why one side of the parish can get full-
size mobile homes and the other side gets travel trailers.
    Ms. Norton. What is the answer to that, Mr. Paulison?
    Mr. Paulison. It depends on the size of the lot and what 
stock we had available at the time. Eighty percent of our 
mobile home stock or travel trailer stock is in people's 
driveways, on their personal property. Most of the group sites 
were travel trailers. We are probably not going to do that 
again, because we did not recognize they were going to be there 
that long. So in the future, if we do group sites where we use 
mobile homes and not the travel trailers, we will use the 
travel trailers to back up in people's driveways.
    That is another lesson learned. This is another housing 
piece for FEMA that we did not have the experience in, we did 
not have the expertise in. We didn't, quite frankly, have the 
ability to do it, it got dumped in our lap. We normally house 
3,000 to 5,000 families a year. We ended up housing over a 
million people after Katrina and Rita, far beyond the capacity 
of this organization.
    So we are learning as we go along. We would not use travel 
trailers again at group sites, if we have the choice.
    Ms. Norton. Just two more questions. Mr. Dupuy, of course, 
is doing something very interesting and new. Congress itself 
has authorized this. Is this a pilot, the first of its kind?
    Mr. Dupuy. Yes, ma'am. Congress in June of last year 
included $400 million in supplemental appropriation for FEMA to 
conduct a pilot program.
    Ms. Norton. Could I ask whether or not, when these houses 
are built again, these were still under FEMA's jurisdiction, 
although this is permanent housing in the sense that it could 
remain standing. What is envisioned, that FEMA will sell the 
housing to these or other people, Mr. Dupuy?
    Mr. Dupuy. Each of the four States that are receiving 
grants from this pilot program get to make the decisions on how 
the housing will be displaced at the end of the pilot program. 
In Louisiana, Governor Blanco has tapped the Louisiana Housing 
Finance Agency to administer the program. That agency promotes 
home ownership, and the LHFA has committed to make as many of 
the units available for home purchase as possible.
    Ms. Norton. So they will be owned by people afterwards? And 
this will become permanent housing in the community?
    Mr. Paulison. They are owned by the State, and each State 
will decide how they are going to be dissipated. They belong to 
the State. They don't belong to FEMA.
    Ms. Norton. This alternative housing is very promising. I 
don't know how promising it is for large numbers of people, but 
obviously Katrina is unusual. We don't have many disasters that 
have such huge numbers of people. So this may be more practical 
than we think.
    Before you leave, finally, Mr. Paulison, again with my 
apologies, and I appreciate that you have been able to stay, I 
would like to ask you this question. Given what Mr. Shuster and 
I have said about new thinking that can be done within the 
agency, bearing that in mind, do you believe that any statutory 
change is necessary to meet the kind of problems that arose in 
Arkansas, in Mississippi and in Alabama with respect to housing 
relation planning and the proximity to either services or other 
housing?
    Mr. Paulison. No, ma'am, I don't. I think we have the 
authorities we need to do the job. I think that what you are 
going to see and what you see now is you are going to see a 
different FEMA, looking at things differently, looking outside 
the box. But the authorities that I have at my disposal I feel 
are adequate for me, not only adequate, are more than adequate 
for me to do the job that you want us to do.
    Ms. Norton. Let me ask you one more question. Are there 
people living in some of the Louisiana, there are so many 
people there, people like Ms. Williams who have jobs and can't 
get to them, she has gotten to her and I congratulate her. But 
are there people living in some of these trailer areas who are 
disproportionately elderly, had been on welfare, had been 
disabled, in these trailer units?
    Mr. Paulison. I don't know about disproportionately, but 
the answer is yes, the group sites that we have are a mix, a 
cross of Louisiana. We have elderly, we have families, we have 
people who are disabled.
    Ms. Norton. What is going to happen to those people?
    Mr. Paulison. It is a major social issue. I don't know what 
the final answer is. We have tens of thousands still in Houston 
that have been displaced from Louisiana, who have not been able 
to go back home yet.
    This is a major social issue that I would love to work with 
this Committee on, maybe outside the purview of FEMA. But I 
think that this Committee definitely would be able to look at 
some of these issues and how we are going to resolve them long-
term.
    Ms. Norton. I don't know what the answer is. But I know 
this much: people who are elderly, people who were previously 
on welfare, people who are disabled, are not going to buy 
themselves and make their way out of temporary housing. And 
here the courts are faced with a situation they don't even know 
what to do with, because they don't want to do something 
inhuman, you don't want to do something inhumane.
    Recognizing that many of the communities have been 
destroyed, that is, however, let me put that aside for a 
moment, that would, in most States there still are communities. 
If people have been on welfare or are elderly or have been on 
aid to disabled or any of the like, is there anything that 
would keep FEMA from saying, you had a life in a permanent 
community. It might not have been the life you loved, but it 
was a life involving each of these things. Could FEMA help 
these people get to a community and to the local service where 
at least they could resume living the life they lived, as 
opposed to, understand what a FEMA trailer is, people are 
accepting food by charity. You have no obligation to render 
many of the services you are rendering. You are setting time 
limits that themselves would be regarded as something close to 
displacement camps some place.
    What is to keep you from saying, some community must be 
found, and we will aid you to find a community, whatever was 
your prior circumstance, because this community has to 
evaporate? What is to keep you from doing this, and do you have 
the authority to do this now?
    Mr. Paulison. Yes, we do. We are working very closely with 
HUD, trying to make our relationship with HUD and other Federal 
agencies much more robust than it has been in the past. HUD is 
the expert in housing, it is not FEMA. So we have been working 
with them to find out what do we do. We have people in 
apartments, particularly in Houston, and to transition those 
people over into HUD programs and then the people in the travel 
trailers and mobile homes, to do something similar to that. The 
travel trailer and the mobile home sites we set up are not 
conducive to a good family life. We need to find some way, like 
you just said, to find a better type of environment for them to 
live in. It is not where they are right now.
    Ms. Norton. Like we don't dump trailers, we don't dump 
people on communities who are in need of community services. We 
have got to find a way, though, this is catastrophe waiting to 
happen. You are going to have some of the last evacuees left 
and something terrible happens to them, fire, something 
terrible happens to them. And I'm telling you, the simple thing 
I am suggesting is not Houston. Houston has done more than its 
share. Moreover, Louisiana doesn't look like there are many 
communities either.
    But it does seem to me that somehow the decision has to be 
made that of the communities in the larger area, with perhaps 
some assistance from the Federal Government, at least to begin 
with, people can find their way back to the life they had. FEMA 
doesn't promise, the United States doesn't promise the life you 
should have. But if the life you had was less than any of us 
would have wanted, at least you must find that life, or else 
FEMA is left with 48 hour cutoff notices, although that had to 
do apparently with the State of the particular area.
    You have said that relocating was the right thing, but you 
regret the 48 hours. We know there was no emergency there. It 
had a stench to it, we know that the light had been cut off. It 
was a pretty inhuman situation. Why 48 hours?
    Mr. Paulison. Staff wanted to move people over the weekend, 
so they didn't lose day work, come in Monday and the kids would 
not miss school. They thought they could move everybody over 
the weekend.
    Ms. Norton. Did you have a meeting and call people like Ms. 
Williams together and tell them that?
    Mr. Paulison. They did not. And that was my concern, I 
fixed that, that is not going to happen again. There should 
have been better communication. There should have been better 
consideration for people who maybe wanted to stay another week 
to get out of there. However, the conditions, and I am sure Ms. 
Williams will testify to that, in that particular area, was not 
good. They were not being treated with respect. Some people 
were on oxygen, so when the power went out, they would have 
problems. The sewer would back up consistently. This particular 
person had two other trailer parks that we closed down also, we 
moved out of.
    The decision, again, was a good one. I will stand by that. 
However, my staff should have been a little more sensitive, and 
I have made that extremely clear to them. That is not going to 
happen again.
    Ms. Norton. Thank you, Mr. Paulison. Let me ask you this. 
Whether you are going to give people two months, or the notion 
of calling people together, so that they understand. Most 
people, if they understand what is happening, can accept it, 
particularly under the circumstances that they are living. I 
tell you, that was the part of it that most got to my gut. Here 
are people who have, for reasons having nothing to do with 
themselves, because it was a natural disaster, have bene left 
out there longer than any of us would know what to do with. If 
you are down there, you can get to treating people like cattle, 
or some kind of displaced somebodies who we just have to find 
room for. That is outrageous.
    And I understand that you bring a very good and 
humanitarian view to your work. I don't mean to criticize it. I 
do mean to say that that has to down from the top, all the way 
down. And I wish you would send out a notice about what has to 
be done. All people must be called together somewhere if you 
intend to move them. So that the same kind of town meeting that 
I have in my district, you all would have, call it what you 
want to, so that people could ask questions.
    If the old people heard you say, but you know, there are 
young people here and children here and we don't want them to 
miss school, do you think they would have said, well, I don't 
want to be moved on 48 hours' notice? But if you are a cripple 
in a trailer and you think somebody wants to move you, you 
think, this is the third time maybe that you have moved, you 
have every reason to be outraged.
    Thank you for your work. I want to work closely with you. 
If you are willing to work with me and if you are willing to do 
what Mr. Shuster said, let's think about how to do it another 
way, not cite a regulation, do what you finally did with the 
GSA trailers, only do it right away, and tell your people that 
we are expecting that kind of thinking about alternatives 
before ever saying no, then I think we are going to get on fine 
as long as I am Chair of this Subcommittee. You may be excused.
    Mr. Paulison. Thank you.
    Ms. Norton. I would like to have the other members ask 
questions of our other witnesses at this time, if they desire.
    Mr. Shuster. Thank you. First question, to Mr. Dupuy, it 
appears as though the Katrina cottages are superior to the 
travel trailers. Can you talk a little bit more about that?
    Mr. Dupuy. Sure. They are certainly larger. Travel trailers 
are very small inside. They are intended for recreational use, 
as we heard today, they are not intended for long-term living.
    Mr. Shuster. They can be long-term living? The look like 
they are stout enough that you could live there.
    Mr. Dupuy. The homes that we are building are on a 
foundation, they are stick-built, they are not modular. They 
are meant to last forever. They used advanced material, we will 
be using steel framing that is designed to withstand hurricane 
force winds, cement fiber paneling.
    Ms. Norton. Just a moment. We are excusing Ms. Williams to 
get to the airport. The last thing we want to do is compound 
the problem by having her miss her plane. Thank you so much for 
coming, Ms. Williams.
    Excuse me, Mr. Dupuy.
    Mr. Dupuy. Sure. Also, aesthetically, they are an 
improvement over travel trailers and mobile homes. New Orleans 
is a very aesthetically sensitive place. Mobile home or travel 
trailers do not fit into the neighborhood fabric there. The 
homes that we have designed speak very much to New Orleans 
architecture, over in the southwestern part of the State, the 
architecture over there.
    Mr. Shuster. And you looked at different sections of the 
Country to try to make it aesthetically pleasing?
    Mr. Dupuy. One of the benefits of this model is that the 
exteriors can be adapted to any architecture around the 
Country.
    Mr. Shuster. It is Cypress Cottage Partners, what groups 
are those, investors?
    Mr. Dupuy. No, it is a collection of companies that came 
together to respond to FEMA's pilot program and to deliver on 
it, now that we have been selected. It consists of Cypress 
Realty Partners as the developer, the Shaw Group out of 
Louisiana, which is a large engineering construction company, 
Lowe's Home Improvement, which is providing the materials, 
Andres Duany, who is an internationally respected town planner 
and architect, Marianne Cusato, who was the designer of the 
first Katrina cottage. That is our team.
    Mr. Shuster. Thank you. Mr. Molino, is your concern about 
the travel trailers, is the used trailers or the new trailers 
that are of greater concern to you and your industry?
    Mr. Molino. I don't think they are getting rid of the new 
trailers. I think it is the used trailers that they are putting 
into the market. But our concern would be anything, because we 
are a small industry and dumping or selling to the consumer has 
two issues. The first is the market issue, the second is the 
safety and, if they are not fit, mission-ready, selling them to 
a consumer, a consumer thinks he is buying an RV from watching 
our commercials and stuff, and they are not getting a safe RV, 
they are going to have a bad experience. That is going to give 
our industry a bad name, too.
    Mr. Shuster. Is it your concern, as Director Paulison said, 
they are trying to maximize what they get out of these 
trailers, because it is the taxpayer dollars. Are you 
comfortable with the amount of money they are getting for them? 
I understand your concern about what condition they are in, but 
as I mentioned, I live in a small community and there are 
farmers that have along the river frontage a lot of folks that 
have purchased these types of trailers. They buy them 
inexpensively, because they can afford them, then they spend 
the money to fix them up.
    So the amount of money you are getting for them, do you 
consider that dumping?
    Mr. Molino. It could be. I am really not competent to 
comment on that, because I do not have the data on how much 
exactly they are getting. Forty cents on the dollar does not 
seem like that is a tremendous discount, really.
    Mr. Shuster. And the new ones, they are not selling the new 
ones, based upon, I think, because of the law we put in place.
    Mr. Molino. Right. I don't think they are selling new ones.
    Mr. Shuster. They aren't, because it is against the law at 
this point. They have to go about it in a long way to make sure 
that it doesn't affect your industry in an adverse way.
    Are you concerned over donations? Is that a concern to you?
    Mr. Molino. No, I don't think so. That doesn't get them--if 
they are donated, I am sure they will be donated to people who 
have the ability to refurbish them and make sure they are safe. 
In fact, the dealers might even want to participate in that on 
a voluntary basis, on a community service basis.
    Mr. Shuster. I have no further questions. I yield back.
    Ms. Norton. Thank you very much.
    Mr. Molino, can I ask you, do members of your association 
have a standing contract or some kind with FEMA to provide 
trailers?
    Mr. Molino. No, ma'am. That is another part of the issue. 
When Katrina happened, it was very chaotic and people were out 
trying to buy trailers. It was very difficult to try to bring 
any order to it, to tell our people where to go, to send their 
specifications because it was happening so fast. And that is 
one of the things I would like to talk to the Director about 
and be able maybe to work something out in the future so that 
there is an alert system. We don't really want a contract with 
them, but we would like to be able to inform all the dealers, 
especially the dealers in the disaster area, that there is a 
need for trailers, so that they can offer them, they can bid on 
them.
    What happened, manufacturers sold direct. They didn't sell 
through dealers in all cases. And some dealers from out of the 
area actually benefitted more greatly than the dealers in the 
area. It is a definite fairness issue. So I appreciate your 
asking me that.
    Mr. Shuster. Madam Chair, I have to depart shortly, I just 
want to make sure the record will remain open and we can submit 
question to our witnesses.
    Ms. Norton. Very much so. We certainly are learning a lot.
    Mr. Shuster. Thank you.
    Ms. Norton. I wonder if it would make sense, Katrina 
brought up all these huge, you say they ran around looking for 
trailers and I am sure people were willing to sell them. Would 
it make sense for FEMA to have a contingency contract with the 
owners so that they could quickly transport trailers, rather 
than to store them and then be left as we are now finding them?
    Mr. Molino. I would like to pursue that. We offered that 
actually before Katrina and I think what FEMA was looking for 
at that time in their planning, and this ma have even been 
prior to the current Administration, but it was in that area 
between Mr. Witt and the first FEMA director under the current 
Administration. There were some issues about trying to find a 
company that could actually take over the contract and actually 
put the vehicles into sites and get the sites prepared and do 
all of that. We weren't capable of all that enormous task.
    Ms. Norton. Of course not. So you had to have two or three 
things going for you in order to be able to do that. This is 
the kind of contingency planning that we hope FEMA learned from 
Katrina, and that is something that we will want to submit as a 
question to them.
    Mr. Dupuy and Ms. Turner, you are here because of what I 
indicated at the start of the hearing, that we were interested 
in solutions and too often hearings are not solution-oriented 
or they are oriented toward, oh, why don't we do what Mr. Dupuy 
says, all over the Country quickly. The Congress did it the 
right way by seeing what happens, making sure that some 
contracts could be let, learning from them. That is one way to 
do it, very attractive. Because I see it as fulfilling two 
possible needs, obviously the need for short-term housing. But 
since, as I understand it, this housing is built so that it 
could be permanent, given the shortage of affordable housing, 
there goes a double bang for the buck. So I am very interested 
in this solution.
    Meanwhile, Ms. Turner, we have asked you to come, and may I 
thank you again for coming on such short notice. Because the 
problem is just that hard. We are not going to be able to do 
enough of what Mr. Dupuy apparently is already showing can be 
done, we are not going to be able to do it, even though it 
looks like we will sell these. So the cost doesn't even become 
the kind of problem it is for FEMA and others to deal with this 
situation.
    But we know that FEMA deals with emergencies. What we are 
trying to do, as I said in my opening statement, is to assume 
the state of affairs we have with Katrina. We have it in Mr. 
Mica's district. We have some trailer areas that have never 
dispersed. Perhaps some of you have seen some in the press, it 
was either Mr. Mica's district or somewhere in Florida. You may 
have seen that in some of these areas where the last people to 
leave are the ones who have the least means to leave, or for 
whatever reason can't get out, aren't getting out.
    In those places, we have reports of serious crime, FEMA is 
not a place force. We have had reports of fires and the local 
fire people sometimes saying we are not coming the next time, 
but of course they do. They submit a bill to FEMA and FEMA 
says, we have your bill, we are going to try to do what we can. 
And FEMA doesn't know whether it should pay or not for this 
vital service. We have the transportation issue. Ms. Williams 
was an excellent witness, because all we have to do is take 
away her car and we have someone that we are making dependent 
on the State, because you then take away her job and yet, FEMA 
is not supposed to help you get there. My question to you is, 
we can't do what Mr. Dupuy wants us to do for, remember, not 
just Katrina victims, but for victims of natural disasters all 
over the Country. What would be the component parts of the town 
or community, I won't call it a town or community, because it 
is not meant to be that. It is really meant to be a temporary 
place.
    What would be the component parts to make it work while 
people are there and to help it, I use the word evaporate, 
because I mean that, what is minimally necessary to keep that 
from becoming a crime, disaster area, so that you will never 
put another trailer park there as far as that local community 
is concerned? What is necessary given a fact that you may have 
a disproportionate number of people who have problems, like the 
elderly have, or people who didn't have any work in the first 
place? What is necessary, one, to sustain them in some kind of 
decency? The statute says shelter. Nobody is going to provide 
long-term food and services. Sustain them in humane conditions 
while at the same time moving them on and out as quickly as 
possible rather than allowing them to take root, as some are 
quickly taking root in Louisiana and already have in Florida 
from past hurricanes.
    Ms. Turner. I want to start by saying that I am not an 
expert on FEMA or the Stafford Act. So I am going to talk 
about, in principle------
    Ms. Norton. Talk about in principle, because none of us are 
on what to do here. That is why we are really talking off the 
top of our heads. But talk about this. We are not going to set 
up a new social services agency within FEMA.
    Ms. Turner. I agree. First, we should be putting as few 
people in trailer sites like this as possible. I think it is 
inevitable in a disasters of the magnitude of Katrina that 
there was going to have to be some people put in group trailer 
sites. But FEMA, this Administration went to that solution way 
too fast. They didn't use HUD and HUD-type solutions to help as 
many people get back into regular communities with some housing 
assistance quickly.
    Ms. Norton. I take your point but I really wonder where the 
whole darned Gulf Coast had been wiped out and people are piled 
into Houston and Baton Rouge, whether there was room to do much 
more piling in of people than was done.
    Ms. Turner. I think they could have served a significant 
number of families with vouchers.
    Ms. Norton. Where?
    Ms. Turner. In the outlying parishes of the New Orleans 
metropolitan area, outlying areas of Baton Rouge. It wouldn't 
have taken people back exactly where they wanted to be. And it 
wouldn't have taken care of everybody. I am not suggesting this 
is a silver bullet. But we could have done more, both in the 
Gulf and in the diaspora.
    Ms. Norton. How do you know that?
    Ms. Turner. Because actually, vacancy rates in that whole 
part of the Country, rental vacancy rates were quite high at 
the time of Katrina.
    Ms. Norton. Why do you think, if there are vacancy rates, 
people usually come themselves to the Government agency and 
say, me, me, me. Mr. Paulison is not here, so I have to ask 
these questions.
    Ms. Turner. Because our conventional housing subsidy 
programs are under-funded and have huge waiting lists, 
essentially the Katrina families were either getting at the end 
of a very long waiting list if they went to the conventional 
programs, or they were bumping equally needy people from those 
communities.
    Ms. Norton. These were temporary, they weren't bumped for 
long, because FEMA can only provide temporary assistance. So if 
you provide somebody with a house, you might be bumping 
somebody who is already living in a dilapidated house. You are 
not in fact displacing people for very long on FEMA funds.
    Ms. Turner. I think that is part of the problem here. I 
understand that there is a line between what FEMA can do and 
what other parts of Government can do. But in a disaster like 
Katrina, the temporary for the families, like Ms. Williams, 
temporary is not 18 months. Temporary is a couple of years 
until their communities can be rebuilt. She has not been able 
to rebuilt her house on her land yet.
    So we need a way to think about solutions that last longer 
than FEMA's 18 months.
    Ms. Norton. I'm trying to make this as hard as it is. You 
heard Ms. Williams say that in the areas closest to her house, 
she obviously would rather not have a two hour drive, there 
wasn't housing. So that is why she is wiling to drive. The 
woman has children, and five people living in a trailer.
    Ms. Turner. I think Mr. Dupuy's solution would work great 
for Ms. Williams. She owns land. Her insurance settlement has 
paid off her mortgage. She doesn't earn enough to have a new 
house built on her land. This temp-to-permanent solution would 
work perfectly.
    Ms. Norton. She may be a buyer for these houses.
    Ms. Turner. Yes, she was writing down the information on 
her pad.
    Ms. Norton. I want you to go on, but I tell you, without 
more information from FEMA, I do not accept the notion that 
there was all kinds of rental housing that they overlooked or 
didn't use. I just don't believe that the market system works 
this way.
    I realize that Katrina is a bad model for what we expect in 
the natural disaster. But it is very hard to believe. Although 
I accept that the first thing you ought to do is try to find 
existing rental housing. Of course, Baton Rouge, that was done, 
Houston, that was done. I don't know about other places. But go 
ahead. But assuming you get there, which is a problem we have 
now.
    Ms. Turner. Assuming that we end up with these trailer 
communities, I would say the keys are health and mental health 
care for adults, elderly, disabled, but also children. The 
children who were traumatized in this storm are suffering 
terribly emotionally. The consequences for them long-term could 
be devastating. There should be job training and job search 
assistance. And if the trailer community isn't near jobs, there 
needs to be help with transportation. Ms. Williams is really an 
incredibly resourceful person. A lot of the families left stuck 
in these trailer parks, as you have suggested, don't have her 
strength, resilience, resources.
    Ms. Norton. So even if FEMA, which obviously is not 
equipped to provide job training, and I assure you, we do not 
intend to have a job training agency, are you suggesting that 
the Department of Labor, for example, which does provide, it 
might provide a trailer nearby or some place nearby to help 
place people, already existing, funded services?
    Ms. Turner. And coordination between FEMA and its trailer 
park managers to get those services that are available in the 
communities on site.
    The Renaissance Village trailer community outside Baton 
Rouge that I visited was just getting a Head Start facility up 
and running when I was there. And the woman running that 
facility, not using any FEMA money, had had to fight tremendous 
battles to be allowed access to that fenced-in trailer 
encampment, where there were hundreds of little kids in need of 
the kind of successful program that Head Start offers.
    Ms. Norton. I'm sorry, what was the service that she wanted 
in?
    Ms. Turner. She was putting a Head Start, an excellent Head 
Start program into that. So health and------
    Ms. Norton. And you are saying she was funded by the county 
to do Head Start?
    Ms. Turner. I think she was funded by HHS to do this Head 
Start program. But it was a long battle to get her program into 
the FEMA trailer camp.
    Ms. Norton. I am going to go back to transportation. I 
don't think anybody wants to make the FEMA village look like it 
is a village with services. If you didn't have Head Start where 
you came from and more than half of the families who are 
entitled don't, then set up Head Start in the FEMA village and 
of course you send a message about the FEMA village that 
wouldn't be necessary.
    It seems to me, though, that if she is funded to do Head 
Start, she can help get them out, if in fact people can, here I 
go back to travel, if FEMA can provide a shuttle to the Head 
Start. To the extent that a FEMA place looks like a place where 
there are services, I don't understand why you should leave the 
FEMA place. I hate to be just that hard-headed. But that is 
what the statute contemplates. If it didn't you can imagine how 
permanent these particular trailer parks would be.
    We are getting to the point where nobody decent who owns a 
piece of land wants a FEMA trailer park there. So you get 
people like the Hammond, Louisiana trailer park, who took the 
money from FEMA, let the lights go of, didn't take care of his 
land. I am trying to make it as hard as I think it is out 
there. I don't think that lots of on-site services, as opposed 
to what your writing has suggested, that transportation may be 
the key to people being able to move on with their lives. You 
didn't have in mind a FEMA park. But again, being able to get 
some place and seeing what life was--I hate to use this word--
but what life is like on the outside can give you a taste for 
the outside.
    Ms. Turner. I agree that making these FEMA trailer park 
villages super rich in services has a potential downside and 
that the primary goal should be getting families out of them.
    Ms. Norton. You realize FEMA doesn't provide any food?
    Ms. Turner. Yes. Getting people to jobs would be a critical 
element. But again, you have talked about a rock and a hard 
place. I agree with you that there is a concern about making 
these too village-like, too permanent-like. But if you have 
thousands of vulnerable families living in a place with no 
services, that is also a recipe for disaster, for the families 
and for the surrounding community.
    So I think it is actually a really tough call. As long as 
you have significant numbers of families who you have put in a 
FEMA village, really making that the most unpleasant place 
possible is counterproductive. So I would argue for delivery 
key services at the same time you work family by family, with 
good case management services, on getting them out and back 
into home communities, if not their original home.
    I appreciate your point that they may go back to their 
previous circumstances, which might not have been perfect, that 
perfect can be the enemy of the good here.
    Ms. Norton. That is very helpful. Listening to you, this is 
what I take away from what you said. At the very least, these 
people are under the jurisdiction of the Federal Government, I 
will call it humanitarian services. Charities are doing things 
like providing food. FEMA has provided food well beyond the 
authority it should be able to do so. So I am not even willing 
to say that food has been included, because I don't know 
enough.
    But I do know that what FEMA faced with something that 
looks outside of its statutory mandate is not to say, okay, 
here is the propane gas for you to cook, except we are not 
supposed to provide propane gas, so all the propane is gone 
after this or you have a certain amount per X or what. I am 
saying, relieving it to ad hoc circumstances and that becomes 
per se inhumane, because it is not being thought out either by 
FEMA or by this Subcommittee.
    Secondly, the crime that has become a part of some trailer 
parks, the ones I know about are in Florida, where they were so 
notorious that they were on television. It does seem to me that 
minimally, wherever you are, you are entitled to protection 
against crime. I know nothing about it. I intend to find out 
about whether there are peace officers, to say to a county, by 
the way, tell your cops to come in here. An unfunded mandate, 
as we say here, is obviously not the solution. On the other 
hand, if you say, here is a guard that is at the gate of the 
FEMA village and that is it, then of course you are creating an 
intolerable and inhumane circumstance of your own kind.
    For services other than humanitarian services, seems to me 
that, I am going back again to transportation, shuttles, for 
example, probably could be provided today to jobs, certainly. 
To services, but where does that lead us? Some people need only 
services and will never get, did not a have a job before, or 
perhaps had one but were unemployed. That has to be faced. What 
is the obligation of the Federal Government with respect to 
those people?
    I believe the obligation is to resettle them somewhere. And 
there is the dilemma, where. My own sense is that if they are 
dependent that they must not all be settled, they have to be 
spread out. I am literally thinking off the top of my head, 
before it all happens and one day you find out you are left 
with a FEMA village of elderly people, disabled people and 
unemployed people. Whoever they are, they have to be spread 
out. They are not entitled to anything more than they had when 
the disaster occurred. And to get any community to accept any 
but the kind who would automatically go, we have freedom of 
transportation as a constitutional right in this Country. If 
there are any number, it does seem to me that the Federal 
Government for a period, a very limited period, might provide 
some transition costs to the local community.
    Ms. Turner. It may require some transition costs to the 
family to get them back to the less than perfect circumstances 
they had.
    Ms. Norton. Well, that goes with, the reason, now watch 
out, this may be too clever by half. You want them to get to 
the community that provides the services. And every community 
of the United States, whether it is in that particular part of 
the community or not, the same services are available. We give 
people aid, unemployment insurance when they have lost a job. 
We give people aid to dependent children. We give people, you 
don't have to live in your community to get the aid that you 
are entitled to as a 70 year old person who can no longer work, 
even if you were at the time entitled to.
    Ms. Turner. But those are all entitlements. But------
    Ms. Norton. The whole notion of giving it on-site is not 
necessary, if we can take that person to some place where those 
services are provided, it is everywhere in the United States of 
America. But not in a FEMA park.
    Ms. Turner. For all those services, but there may need to 
be some long-term, not FEMA, Government help for some of those 
families with their housing costs. Because many of the people 
from New Orleans, which I know the most about, they lived in 
very expensive, possibly run-down but affordable housing before 
the storm, the elderly, disabled, unemployed. That housing is 
not there any more.
    Ms. Turner. You are so right, Ms. Turner. When I said 
transition costs, you have to have a place to live. And I am 
assuming the worst now. You have to have a place to live, you 
do not have a job. Maybe you didn't have one at all. But you 
have to, the point of the transition costs is that you 
``deliver the family to the services.'' Now, you know, you 
could do that anyway, because we do have, as I said, freedom of 
movement. But that would be a terribly unfair thing to do. We 
have already done it to Houston.
    So you put them on notice, there are X number of families 
coming in, large numbers of families would just be stupid, so X 
number of families coming in. They will need these services. If 
there weren't Section 8 housing there, that is one of the 
services they would need. This family, like Ms. Williams, has a 
job. She needs affordable housing, she needs Mr. Dupuy to give 
her this housing, which isn't available yet.
    In other words, the point is, to get the people to the 
services as opposed to saying to FEMA, you now are a service 
providing agency, which will never happen in this Congress and 
should never happen, should never happen, as long as we are 
providing services anywhere in the United States of America, 
unless we want to have colonies of people who are displaced 
from disasters, and then they become displaced people in the 
United States of America.
    Ms. Turner. I very much appreciate this argument that you 
are making. I would just suggest that in addition to thinking 
about giving the receiving communities time to prepare that the 
families who are going to be relocated get time to prepare.
    Ms. Norton. Not 48 hours.
    Ms. Turner. Not 48 hours. And that their choices and wishes 
are respected.
    Ms. Norton. This is America. That is how you would have to 
do it. Here are a set of communities where there is Section 8 
housing, where there is a market for jobs. You choose. But you 
can't stay here forever.
    Ms. Turner. And some of those families, as you have 
recognized, are going to have a really tough time with that 
choice. Some of the families, certainly not Ms. Williams, but 
some of the families who remain in those trailer parks are like 
some of the families remaining in the distressed public housing 
of Chicago or the District. The families who are the last to 
leave are the most troubled. And they really need a lot of 
help, if we are going to be compassionate. They need a lot of 
help figuring out what their options are and taking advantage 
of them.
    Ms. Norton. Ms. Turner, that is the--go ahead.
    Ms. Turner. Even Ms. Williams, who is tremendously 
resourceful, the little conversation I had with her, she does 
not fully understand what is going on with the insurance, her 
mortgage, the road home. She could really use somebody helping 
her figure out what her options are and how she can best take 
advantage of them.
    Ms. Norton. Meanwhile, the United States of America is 
providing a trailer at what is the cost, Mr. Molino, of a 
typical trailer?
    Mr. Molino. It is $60,000 to $90,000 installed.
    Ms. Norton. Thank you. It is a question of looking to where 
the money is and tapping it for the right purpose. Nobody is 
going to dump people who can't take care of themselves in a 
community or you will hear from their Congressman. They will be 
right in here telling you about it before the first family is 
there. Nobody is going to fail to take the trailer experience 
that now makes it hard to find any place to take a trailer. 
Your point is really the point I tried to make in my opening 
statement, who are the last evacuees? They are the people who 
are least able to help themselves.
    Therefore we have to say compared to what now is. You may 
be in a $60,000 trailer, but your family is eating via, not 
even welfare. Via charity. Why, because you don't qualify for 
welfare, so via charity.
    Yes, the children are going to school. God knows how far 
the school is, since the important point is to get a trailer 
some place. In other words, it is untenable for these trailer 
parks to continue to house people without moving them on. If I 
were to put any marker on FEMA, it would be, are they doing 
what we have provided them with in order to help people move 
on. And I am in a position now where we haven't provided them 
with anything except with their own creativity, which we need 
to give them suggestions about how to use. Because I think that 
they probably could be providing the trailers right now. I 
think probably, and I don't even know what I am talking about, 
because I haven't looked at the statute, but I think probably 
if there was a Ms. Williams, could be providing her some basis 
to get there and giving her a limit to find closer housing. So 
that $60,000 or $90,000 could be freed up for those in greater 
need.
    I want to thank all of you for coming, particularly for 
waiting us out. I go on for so long, because we could easily 
hear your testimony. Thank you for it. We try to leave these 
hearings with, what are we going to do. You have given us not 
only a lot of food for thought, but frankly, each of you some 
very practical suggestions. The Subcommittee is very grateful 
to you for the time and attention you have given.
    Thank you and the hearing is adjourned.
    [Whereupon, at 5:16 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 34791.005
    
    [GRAPHIC] [TIFF OMITTED] 34791.006
    
    [GRAPHIC] [TIFF OMITTED] 34791.007
    
    [GRAPHIC] [TIFF OMITTED] 34791.008
    
    [GRAPHIC] [TIFF OMITTED] 34791.009
    
    [GRAPHIC] [TIFF OMITTED] 34791.010
    
    [GRAPHIC] [TIFF OMITTED] 34791.011
    
    [GRAPHIC] [TIFF OMITTED] 34791.012
    
    [GRAPHIC] [TIFF OMITTED] 34791.013
    
    [GRAPHIC] [TIFF OMITTED] 34791.014
    
    [GRAPHIC] [TIFF OMITTED] 34791.015
    
    [GRAPHIC] [TIFF OMITTED] 34791.016
    
    [GRAPHIC] [TIFF OMITTED] 34791.017
    
    [GRAPHIC] [TIFF OMITTED] 34791.018
    
    [GRAPHIC] [TIFF OMITTED] 34791.019
    
    [GRAPHIC] [TIFF OMITTED] 34791.020
    
    [GRAPHIC] [TIFF OMITTED] 34791.021
    
    [GRAPHIC] [TIFF OMITTED] 34791.022
    
    [GRAPHIC] [TIFF OMITTED] 34791.023
    
    [GRAPHIC] [TIFF OMITTED] 34791.024
    
    [GRAPHIC] [TIFF OMITTED] 34791.025
    
    [GRAPHIC] [TIFF OMITTED] 34791.026
    
    [GRAPHIC] [TIFF OMITTED] 34791.027
    
    [GRAPHIC] [TIFF OMITTED] 34791.028
    
    [GRAPHIC] [TIFF OMITTED] 34791.029
    
    [GRAPHIC] [TIFF OMITTED] 34791.030
    
    [GRAPHIC] [TIFF OMITTED] 34791.031
    
    [GRAPHIC] [TIFF OMITTED] 34791.032
    
    [GRAPHIC] [TIFF OMITTED] 34791.033
    
    [GRAPHIC] [TIFF OMITTED] 34791.034
    
    [GRAPHIC] [TIFF OMITTED] 34791.035
    
    [GRAPHIC] [TIFF OMITTED] 34791.036
    
    [GRAPHIC] [TIFF OMITTED] 34791.037
    
    [GRAPHIC] [TIFF OMITTED] 34791.038
    
    [GRAPHIC] [TIFF OMITTED] 34791.039
    
    [GRAPHIC] [TIFF OMITTED] 34791.040
    
    [GRAPHIC] [TIFF OMITTED] 34791.041
    
    [GRAPHIC] [TIFF OMITTED] 34791.042
    
    [GRAPHIC] [TIFF OMITTED] 34791.043
    
    [GRAPHIC] [TIFF OMITTED] 34791.044
    
    [GRAPHIC] [TIFF OMITTED] 34791.045
    
    [GRAPHIC] [TIFF OMITTED] 34791.046
    
    [GRAPHIC] [TIFF OMITTED] 34791.047
    
    [GRAPHIC] [TIFF OMITTED] 34791.048
    
    [GRAPHIC] [TIFF OMITTED] 34791.049
    
    [GRAPHIC] [TIFF OMITTED] 34791.050
    
    [GRAPHIC] [TIFF OMITTED] 34791.051
    
    [GRAPHIC] [TIFF OMITTED] 34791.052
    
    [GRAPHIC] [TIFF OMITTED] 34791.053
    
    [GRAPHIC] [TIFF OMITTED] 34791.054
    
    [GRAPHIC] [TIFF OMITTED] 34791.055
    
    [GRAPHIC] [TIFF OMITTED] 34791.056
    
                                    

</pre></body></html>
